<html>
<title> - RHETORIC V. REALITY: INVESTIGATING THE CON- TINUED FAILURES OF THE PHILADELPHIA VA REGIONAL OFFICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                     RHETORIC V. REALITY: INVESTIGATING THE CON-
                      TINUED FAILURES OF THE PHILADELPHIA VA 
                      REGIONAL OFFICE

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        FRIDAY, OCTOBER 3, 2014

                               __________

                           Serial No. 113-88

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
                                __________
                                
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-131                     WASHINGTON : 2015                                         
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b5a2bd92b1a7a1a6bab7bea2fcb1bdbffc">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas
MARK AMODEI, Nevada                  RAUL RUIZ, California
PAUL COOK, California                GLORIA NEGRETE McLEOD, California
DAVID JOLLY, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                        Friday, October 3, 2014

                                                                   Page

Rhetoric v. Reality: Investigating the Continued Failures of the 
  Philadelphia VA Regional Office................................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman........................................     1
    Prepared Statement...........................................    31
Hon. Dina Titus, Ranking Member..................................     2

                               WITNESSES

Ms. Kristen Ruell, J.D., Authorization Quality Services 
  Representative, Pension Management Center, Philadelphia 
  Regional Office, VBA, U.S. Department of Veterans' Affairs.....     3
    Prepared Statement...........................................    32

Ms. Linda Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Department of 
  Veterans' Affairs..............................................     5
    Prepared Statement...........................................    33

    Accompanied by
        Ms. Nora Stokers, Director, OIC Bay Pines Benefits 
            Inspection Division, Office of Audits and 
            Evaluations, Office of Inspector General
        Mr. Al Tate, Audit Manager, Atlanta Audit Division, 
            Office of Audits and Evaluations, Office of Inspector 
            General
    And
        Mr. Jeffrey Myers, Benefits Inspector, San Diego Benefits 
            Inspection Division, Office of Audits and 
            Evaluations, Office of Inspector General
Ms. Diana Rubens, Director, Philadelphia Regional Office, VBA 
  U.S. Department of Veterans' Affairs...........................     7
    Prepared Statement...........................................    37

Mr. Walter Tafe, Director, Department of Military and Veterans' 
  Affairs, Burlington County, New Jersey.........................    18
    Prepared Statement...........................................    41

Mr. John Dorrity, MSW, CVA, Bureau of Veterans Services, Ocean 
  County, New Jersey.............................................    20
    Prepared Statement...........................................    43

                             FOR THE RECORD

Hon. Michael Fitzpatrick.........................................    44


   RHETORIC V. REALITY: INVESTIGATING THE CONTINUED FAILURES OF THE 
                    PHILADELPHIA VA REGIONAL OFFICE

                              ----------                              


                        Friday, October 3, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 11:08 a.m., in 
the Geraldine Clinton Little Theater, Building 601, Pemberton 
Campus, Burlington County College, 601 Pemberton Mills Road, 
Pemberton, New Jersey, Hon. John Runyan [Chairman of the 
Subcommittee] presiding.
    Members present: Representatives Runyan and Titus.

            OPENING STATEMENT ON CHAIRMAN JON RUNYAN

    Mr. Runyan. Good afternoon, everyone, and I welcome this 
oversight hearing, and the Subcommittee on Disability 
Assistance and Memorial Affairs will now come to order.
    Usually, when we hold DAMA subcommittee hearings, we are in 
Washington. Today, I am honored and happy to be here with all 
of you at Burlington County Community College, here in my home 
district, not too far from my home in Mount Laurel. Although we 
are far away from the normal hearing room in--on Capitol Hill 
and further away from the CSPAN cameras, this is still an 
official congressional oversight hearing of the House Veterans' 
Affairs Committee, and hearing rules on conduct apply here.
    Today's hearing will focus on the Philadelphia Regional 
Office. In July, the full House Committee on Veterans' Affairs 
held a hearing that revealed disarray and data manipulation at 
the Philadelphia Regional Office. Accordingly, today's hearing 
will seek an update on the situation at the regional office, 
including concerns on mismanagement and manipulation to make 
the backlog of claims appear smaller, and exceptional low 
employee morale.
    A regional office employee from another part of the Nation 
recently shared an impression that he said that the regional 
office structure has a--has an excess of management, and with 
a--and a complete void of leadership. I think this observation 
is telling when we look at what has been going on in the 
Philadelphia Regional Office. Ms. Rubens is here today as the 
new director of this regional office, and I hope that she will 
develop this needed leadership at the regional office, because, 
up to this point, I am convinced that the change is neither 
desired nor sought by some complacent management in the 
Philadelphia regional office.
    Thus, this morning's hearing will also address whether the 
Philadelphia regional office director has the appropriate 
measures to address the failures that have recently been heard 
about, and whether the director is prepared to act swiftly and 
appropriately in response to the VA OIG's forthcoming report.
    Continued claims of misunderstanding are simply not 
believable. Even if they were, it would show such a level of 
gross incompetence and disciplinarian action that would be 
necessary, and nobody is fooled.
    I would look forward to hearing from the regional office, 
as well as the Office of the Inspector General, and the input 
of various interested individuals and organizations that will 
speak here today.

    [The prepared statement of Jon Runyan, Chairman appears in 
the Appendix]

    Mr. Runyan. Also, as a matter of formality, I note that 
Congressman Fitzpatrick has submitted a statement for the 
record, and I ask unanimous consent that it be admitted into 
the hearing record.
    Hearing no objections, so ordered.
    Mr. Runyan. And with that, we will begin introductions.
    Seated at the witness table, we will have the first panel; 
Ms. Kristen Ruell, Authorization Quality Services 
Representatives, at the Pension Management Center; Mrs. Linda 
Halliday, the Assistant Inspector General for Audits and 
Evaluations, Office of Inspector General; accompanied by Ms. 
Nora Stokes, Director of the Bay Pines Benefits Inspection 
Division, Office of Audits and Evaluations; Mr. Al Tate, 
Office--Audit Manager of the Atlanta Audit Division, Office of 
Audits and Evaluations; and Mr. Jeffrey Myers, Benefits 
Inspector with the San Diego Benefits Inspection Division, 
Office of Audits and Evaluations. Panel one also features Ms. 
Diana Rubens, Director of the Philadelphia Regional Office.
    Once concluded, we will move on to Panel Two, which will 
consist of Mr. Walter Tafe, Director of the Burlington County 
Department of Military and Veterans Affairs, and Mr. John 
Dorrity with the Bureau of Veterans Services, Ocean County, New 
Jersey.
    I thank all of you for being with us today, and I now yield 
to the Ranking Member, Ms. Titus, for her opening statement.

        OPENING STATEMENT OF DINA TITUS, RANKING MEMBER

    Ms. Titus. Well, thank you, Mr. Chairman, and thank you for 
holding today's hearing. It is nice to see you on your home 
turf as opposed to just in Washington. I also want to thank the 
Burlington County College for their hospitality. This is a 
beautiful campus, and as the fall hits and leaves start to 
turn, it is a very nice place to be. I am from the desert of 
Las Vegas so it is quite a nice change.
    Today, we are going to be looking at, as the chairman said, 
the work of the Veterans Benefits Administration at the 
regional level. The chairman came and joined me in Las Vegas, 
and I thank him for that, where we held a hearing on our 
regional office located in Reno. It was one of the worst in the 
country in terms of the backlog, so it was important that we 
heard what some of those problems were and how we could address 
them. So I am looking forward to hearing from the veterans and 
the offices that are serving you here in southern New Jersey.
    Chairman Runyan and I have worked closely for the past 2 
years to ensure that all veterans have the benefits that they 
deserve and that they have earned, and we have conducted 
extensive oversight in a number of hearings, and so we know 
well the challenges that these regional offices face when it 
comes to trying to deal with and eliminate the significant 
backlog. I am glad to say that the VA is making progress on 
meeting its goal for 2015, and they need to get credit for 
that. Despite the problems, good things are happening.
    I thank Ms. Rubens for joining us today, and I hope you are 
settling in to Philadelphia. So I thank your employees too 
because you have to address every single kind of problem that 
must exist out there, and I know you are charged with 
fulfilling every type of demand. But as the chairman also 
pointed out, we know that more needs to be done.
    As we continue to address this problem, I have a couple of 
concerns that I hope will come out in the discussion today. One 
is the VBA's focus on all or nothing when it comes to 
eliminating the backlog. That is important, but I am afraid 
that that focus comes at the expense of other VA 
responsibilities, and that includes the appeals process. You 
don't want to rob Peter to pay Paul, or fix one problem by 
creating another. If we focus too much on the original claims 
process, I hope we are not building a big backlog when it comes 
to appeals.
    The second concern I have is that the VA seems to be 
focused on just two metrics, and those metrics are average days 
pending and claims accuracy. Now, that is important, but we 
have seen that when you become overly focused on the numbers, 
sometimes you suffer from the ecological fallacy; you can't see 
the forest for the trees. We have got to remember that these 
numbers represent real veterans, real people, and so let us 
look at that from that standpoint, not just from some formula 
on a chart somewhere. So I hope we can discuss that.
    So, again, I thank the chairman for having this hearing. I 
look forward to hearing from his constituents. We are going to 
miss him very much in Washington. I am sorry that the chairman 
has decided not to return to Congress. It has been a pleasure 
working with him, and I can tell you that you have been well 
served by his position on this committee. He has looked out for 
all of the Nation's veterans, and you owe him a debt of 
gratitude. So thank you.
    Mr. Runyan. Thank you, Ms. Titus. And thank all of you too.
    At this time, I want to formally welcome our first panel to 
the witness table. Your complete and written statements will be 
entered into the hearing record.
    And, Ms. Ruell, you are now recognized for 5 minutes for 
your testimony.

                   STATEMENT OF KRISTEN RUELL

    Ms. Ruell. Thank you, Chairman. My name is Kristen Ruell. I 
testified July 14, 2014, in Washington, DC, regarding gross 
mismanagement and violations of law occurring at the 
Philadelphia Regional Office. I want to thank you for the 
opportunity to be heard today regarding the Philadelphia 
Regional Office, and regret to inform you that things have not 
changed, and accountability is greatly lacking for the 
management officials involved in the alleged illegal behaviors 
previously reported.
    As a result of a preliminary OIG investigation, Fast Letter 
13-10 was rescinded. The practices of data manipulations have 
continued at the Philadelphia Regional Office. Instead of 
creating an end product with an altered date of claim, there 
are many instances where claims are in the computer and have no 
dates of claims, as if we never received them from a claimant. 
These veterans are worse off because before they had a false 
altered new date of claim, and now they have no date of claim. 
If the claim is old, I am seeing many instances where it is not 
placed under control at all, which affects the VA's average 
days pending.
    The duplicate record problem has not changed. I was 
informed that eventually VSOs will be able to create dates of 
claims, which are creating--which will be creating duplicate 
records. E-benefits is creating duplicate records as well. A 
colleague of mine, Ryan Cease, has reported this to the VA 
central office but, to date, has heard nothing regarding a 
policy change.
    On July 14, 2014, I testified to boxes of claims that were 
processed in 2011, and were not scanned into Virtual VA, the 
veterans virtual claim file system in place at the VA. 
Management scanned the 60-something boxes of thousands of 
claims into the system, but did nothing to rectify the veterans 
denied for not having information that was sitting in the boxes 
for nearly 4 years. There is no way to track people affected by 
the management decision to let those claims sit for years.
    The return mail that was boxed up with the claim and 
stamped, cannot ID, were thoroughly reviewed, and most 
employees that were on the project informed me that a majority 
of the claims could be identified within a few minutes of 
attention to detail, and some claimants were getting 
retroactive benefits as a result of papers labeled cannot ID, 
and had this not been reported, these boxes would have been 
shredded after being held the required 1-year time frame.
    Employees also reported to me that they were given 
timelines to complete a box, when the timeline was not 
reasonable. One employee resigned after the project because he 
told me he felt extremely stressed and rushed. I have received 
spreadsheets from concerned employees that are afraid to speak 
up regarding the return project. One employee went back and 
checked his spreadsheet, and noticed that a number of the cases 
he marked, required action, have still not been tested and no 
action has been taken, although management stated that the 
project is finished.
    I have seen a reasonable accommodation process get worse 
for employees with disabilities. I feel as though the 
management team in the Pension Management Center should not--
should be removed from the process altogether because they are 
creating liability on behalf of the Agency due to their 
inability or overt actions to fail to follow EEO laws. There is 
no reason for them to follow the law because the Agency uses 
taxpayer monies to pay off employees that have been wronged 
and, at best, sends the management official to a training, for 
them to return to the office and target their next victim, with 
no consequences.
    I have not seen any accountability for the managers 
responsible for the violations that were investigated by the VA 
OIG. This concerns me because they are still entrusted with 
making decisions with our taxpayer monies and on behalf of our 
Nation's veterans, when they have admitted they cannot 
understand a simple Fast Letter language, and have left 
thousands of pieces of veterans' claims, dating back to 2008, 
in white boxes with no action taken to grant or deny benefits. 
There is no training that can instill morals in these managers. 
They seem to be playing by a different set of rules and using 
our taxpayer dollars to have free legal representation, when 
they are failing to provide timely accommodations for disabled 
employees, and benefits to the veterans that put their lives on 
the line for our Nation.
    Employees repeatedly say to me that nothing is going to 
change here, and refuse to report wrongdoings because they feel 
that there is no accountability, and they will end up being 
targeted by the people they reported. It is my sincere hope as 
a citizen of the United States of America that the Department 
of Veterans Affairs holds management accountable for 
retaliation toward whistleblowers, and any alleged wrongdoings 
that are substantiate in the upcoming report from the VA OIG.

    [The prepared statement of Kristen Ruell appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Ruell.
    And with that, we will recognize Ms. Halliday. You are now 
recognized for 5 minutes for your testimony.

                  STATEMENT OF LINDA HALLIDAY

    Ms. Halliday. Chairman Runyan, and Representative Titus, 
thank you for the opportunity to discuss the OIG's recent 
oversight at the Philadelphia, PA, VA Regional Office.
    Since June 2014, the OIG team members with me today have 
spent considerable effort reviewing allegations at the 
Philadelphia VARO, covering a broad range of issues such as 
cooking the books, which refers to data manipulation, mail 
mismanagement, duplicate payments, and inappropriate reprisals 
against whistleblowers. To examine these issues, we began by 
conducting an unannounced visit to the VARO on June 19, 2014, 
then expanded our review to access the merits of over 100 
complaints and allegations of gross mismanagement and potential 
wrongdoing. The allegations include shredding and destroying 
military and returned mail, hiding mail within the VAROs, 
cherry-picking appealed claims, and failing to respond to 
approximately 32,000 electronic inquiries from veterans and 
their beneficiaries.
    We considered complaints regarding the VARO's potential 
misapplication of guidance contained in VBA's Fast Letter 13-
10, a high risk to data integrity and the financial stewardship 
of veterans' claims. VBA's longstanding policy states the date 
of claim is the earliest date of claim that is received at a VA 
facility. In contrast, the Fast Letter guidance required claims 
processing staff to apply current dates to older, unadjudicated 
claims that were newly found or discovered in claims folders.
    As we reviewed a sample of actions completed, we found the 
guidance was used inappropriately at the Philadelphia VARO to 
manage mail backlogs, and to re-establish canceled claims using 
current dates. Further, the VARO did not comply with the Fast 
Letter requirements to identify the discovered claims in the 
electronics system, and to notify the compensation service in 
central office after the claims were completed. VBA uses dates 
of claims to control and manage its inventory. Incorrect 
application of claims processing actions compromises the 
integrity of the data on the time it reports that it takes to 
report a veteran's claim. We also learned that some VARO staff 
took exception to adjusting dates of claims, since the mere 
application of the guidance results in misrepresenting the time 
a veteran waits.
    We concluded the Fast Letter guidance was inherently 
contrary to VA's core values of integrity and accountability 
for reporting accurate information to veterans. In response to 
our management advisory of these concerns, the Under Secretary 
for Benefits issued a moratorium on Fast Letter 13-10, while 
VBA determines the appropriate way to move forward.
    During our onsite work, we found mail bins in the VARO full 
of claims and associated evidence since 2011 that had not been 
scanned into the Virtual VA for electronic processing. We 
became concerned that claims processing staff may be making 
decisions without all required evidence. We also identified 
serious control weaknesses involving electronic date stamps 
used by the Pension Management Center staff at the intake 
processing center to record dates of claim on documents 
received. Each claims assistant was maintaining a key that 
allowed access to the mechanism inside the date stamp where 
they could adjust the electronic date used. As such, 
opportunities existed for staff to alter and misrepresent dates 
of veterans' claims. The Under Secretary for Benefits took 
immediate action to prioritize scanning the claims in those 
mail bins and associated evidence, and identified and 
restricted the access to the keys to electronic date stamps.
    While we previously reported weaknesses in the VARO 
management in 2013, we had discontinued our mail management 
reviews to allow time for VBA to fully transition and implement 
its Intake Processing Center business model, but by 2014, VBA 
had begun using its third business model, a centralized mail 
model. Effective mail management is crucial to control workflow 
at the veteran service centers. We are concerned that the 
implementation of 2 new business models over a short period of 
time has impeded the regional offices' nationwide ability to 
accurately control and manage mail. We expect to continue to 
provide oversight of mail management.
    As we looked at duplicate records, we considered that VA 
has a fundamental responsibility to be an effective steward of 
taxpayer resources. However, we found the Philadelphia VARO 
managers had failed to prioritize claims processing actions 
required to initiate the consolidation and merging of duplicate 
records. Because VARO staff did not timely request 
consolidation, some beneficiaries received duplicate payments 
to which they were otherwise not entitled. In spite of some 
VARO action to correct the situation, more attention is needed 
to strengthen the controls and make improvements in this area.
    We also became aware of facility conditions at 1,400, 
please excuse this, Wissahickon----
    Mr. Runyan. Wissahickon.
    Ms. Halliday [continuing]. Avenue. Multiple complaints were 
also received regarding the work environment within that VARO 
building located close to the main VARO. Physical conditions 
were adversely affecting employees' health, morale and 
productivity. This facility holds two of VBA's major call 
centers. We identified several areas that violated VA's 
Occupational Safety and Health Standards, resulting in the OIG 
issuing a management implementation notification to the Under 
Secretary for Benefits on July 23, outlining our concerns.
    In conclusion, data integrity is a significant concern 
throughout VARO operations, and trust in local leadership needs 
to be restored at the Philadelphia VARO. Communications need to 
be open and transparent, and leadership must ensure they align 
their actions with their words. The level of distrust we 
observed and heard from staff is most disconcerting. Trust is 
fundamental to leadership, especially during times of change, 
and it is too valuable of an asset to be taken for granted. In 
a healthy environment, staff should not fear bringing issues to 
their management, and everyone should work together to solve 
problems. In this case, everyone needs to work together to 
improve the delivery of benefits to veterans.
    Mr. Chairman, this concludes my statement, and myself and 
my team will answer any question.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Halliday.
    With that, I will recognize Ms. Rubens for 5 minutes for 
her testimony.

                   STATEMENT OF DIANA RUBENS

    Ms. Rubens. Good morning, Chairman Runyan, Ranking Member 
Titus. Thank you for the opportunity to discuss operations, 
leadership and employee morale at the Philadelphia Regional 
Office.
    The dedicated employees of the Philadelphia RO are 
committed to improving the delivery of benefits to veterans and 
their family. At the RO, we recently asked every employee to 
reaffirm the commitment to the ICARE values, integrity, 
commitment, advocacy, respect and excellence, putting veterans 
and their needs first.
    We understand our ultimate measure of success will be how 
we serve veterans, and we are determined to succeed by 
regaining the trust of each veteran we serve.
    Leadership at the Philadelphia Regional Office has taken 
the recommendations from the Office of the Inspector General 
very seriously, and we have actively and quickly worked to 
address issues that have been raised.
    Let me assure you, since I assumed my new duties as the 
director at the regional office in July, I have been, and will 
continue to be, committed to fostering an environment and 
culture where employees feel safe to raise issues. I am 
inviting all employees to meet with me in small groups so that 
I can hear their concerns and respond. This is an approach I 
will continue to take as we strengthen our leadership team, 
creating a more inclusive environment for our entire workforce.
    The Philadelphia Regional Office is staffed by nearly 1,000 
employees, administering disability compensation, vocational 
rehabilitation employment, and pension benefits. In addition, 
the regional office is responsible for two of VBA's call 
centers.
    The Philadelphia Regional Office service center 
transitioned to the new organizational model in November of 
2012, and began using the new Veterans Benefits Management 
System in April of 2013. Today, approximately 95 percent of our 
rating inventory and compensation claims is in this new Web-
based system. We are also collaborating with our veterans 
service organizations to promote e-benefits, fully developed 
claims and disability benefits questionnaires, and encouraging 
our veterans service representatives to utilize the stakeholder 
enterprise portal, a secure Web-based connection that 
complements e-benefits, and gives access to VSO representatives 
and other authorized advocates so they can assist veterans in 
filing disability claims electronically.
    This past fiscal year, the Philadelphia Regional Office 
completed over 32,000 rating disability decisions. Our 3-month 
issue-based accuracy rate is currently 95.1 percent, and our 3-
month claim-based accuracy is 88.9 percent. We are not there 
yet, but we are continuing to progress towards the goal of 
completing disability claims within 125 days. We all have--also 
have one of our seven national call centers primarily answering 
calls related to compensation claims, and they answer roughly 
2,400 calls a day.
    Our Philadelphia Regional Office also manages one of our 
three national Pension Management Centers, and this past fiscal 
year, over 300,000 rating and non-rating pension claims have 
been completed with an accuracy rate of over 97 percent. We 
also house the only national Pension Call Center, answering 
about 1,600 calls a day.
    The Philadelphia Regional Office Voc. Rehab and Employment 
Division is currently providing veterans services to over 2,000 
veterans in Pennsylvania and Delaware, and over 140 veterans 
were rehabilitated this past year.
    We do understand the serious concerns and the seriousness 
of the concerns about the operations in Philadelphia that have 
been raised, and I want to assure you we share those concerns, 
and we are quickly taking to address--action to address those 
issues. Some of the issues that Ms. Ruell raised just now I had 
not heard previously, and will meet with her directly so that 
we can understand the details better and address them quickly.
    June 20, 2014, IG issued a management advisory concerning 
claims processing in Philadelphia, and the 4 recommendations at 
that time included in the advisory were concurred in with the 
recommendations, and we have moved to address the issues thus 
far raised by the IG. We have not yet seen the final report.
    In addition to the issues raised by the management advisory 
during a July 14 hearing before the House Veterans' Affairs 
Committee, allegations were made that mail was being improperly 
shredded at the Philadelphia Regional Office. The referenced 
mail included returned mail, VA-generated correspondence that 
the Postal Service has returned because it was undeliverable, 
and military file mail, materials that we had been unable to 
associate with a veteran's records because of that lack of 
identifying information.
    We had become aware of these issues 2 years ago, and at 
that time had initiated steps to address the problems. I would 
tell you that in 2012, procedures were put in place to ensure 
newly returned mail was addressed timely, and no new additional 
mail had accumulated since then. The Philadelphia PMC is also--
sorry, the Pension Management Center has consolidated all of 
our military file mail into a properly marked location, 
incorporates review of that mail weekly with the workload 
assignments within our Pension Management Center. We have 
completed that work, and today, the military file mail is up-
to-date. There are procedures as we continue to go forward to 
continue those reviews in an effort to identify that mail and 
the veterans that it belongs to.
    While the IG was at the regional office to conduct a 
thorough review of operations, the IG raised a concern about 
the volume of unanswered telephone and email inquiries 
requesting a status of pending claims. Over the past 2 months, 
we have dedicated additional resources and have significantly 
reduced the number of claims that are currently pending. We are 
continuing to evaluate the number of employees assigned to the 
activity, to ensure the continued provision of timely 
responses.
    At the direction of Secretary McDonald, the Philadelphia 
Regional Office also recently conducted four town hall meetings 
with our veterans, including two at the Philadelphia Regional 
Office, one here in southern New Jersey, and one in Delaware. 
In addition to the town halls, we conducted informational 
seminars and claims clinics for any veterans looking for claim-
specific information. We learned we need to improve engagement 
and communication with our veterans, with our veterans service 
organizations, medical centers, and National Guard and Reserve 
units. We found the experience to be beneficial. We will 
continue to conduct those quarterly town halls to engage and 
hear from our veterans and other stakeholders. We are also 
scheduling congressional seminars and VSO representative 
training opportunities this fall to continue to strengthen 
those partnerships as well.
    We remain committed to providing the best possible service 
to veterans who reside in Pennsylvania, New Jersey and 
Delaware, and continue to look for ways to improve our outreach 
and partnerships to provide timely, accurate and comprehensive 
assistance to those we serve.
    This concludes my testimony. I look forward to answering 
any questions.

    [The prepared statement of Diana Rubens appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Rubens.
    And with that, we will begin our round of questioning. I am 
pretty sure we are not going to stay under the 5-minute mark, 
but--Ms. Halliday, and thank you for being here today and for 
your testimony, and for all the hard work you have been doing 
to keep the VA accountable, and to improve the department.
    When we last heard from you July 14 in the full committee 
hearing, you told us that the Office of Inspector General had 
received serious allegations regarding the mail management, and 
manipulation of dates of claims and other data integrity issues 
at the Philadelphia RO. I understand from your testimony that 
the investigation remains ongoing, so the OIG was unable to 
publish a final report before this hearing. We look forward to 
reviewing all the findings when it comes.
    In your testimony, you described some of the many 
disturbing allegations of mismanagement at the Philadelphia RO, 
including the Fast Letter 13-10 to a more current date, 
manipulating mail and other games.
    It seems to me there is nothing confusing about what is 
going on there, and management was, frankly, cheating and got 
caught. My understanding, you have not a final report, can you 
share whether your report will contain recommendation for 
action to include disciplinary action on that issue?
    Ms. Halliday. Well, our work is ongoing. We intend to lay 
out the facts as we saw the--see the facts in the application 
of the Fast Letter.
    The issues are the misapplication of that guidance. We 
found it difficult to grasp that the VBA officials entrusted 
with administering a broad range of benefits had such a hard 
time implementing the guidance.
    One of the major problems at the Philadelphia VARO is they 
did not do a reporting of the exceptions to the compensation 
service in VA headquarters. That compromised the audit trail to 
determine exactly how many transactions were processed.
    We are looking at this very closely. We will issue a 
report, we will share with the department any area where we 
feel that the actions have been inappropriate for VA to decide 
the administrative action.
    Mr. Runyan. Thank you, and we look forward to it.
    You also noted that VBA is challenged in its attempts to 
work through its claims backlog, while implementing the 
electronic claims process, and your testimony noted that an 
increase in oversight is needed at all levels.
    As of the OIG's April 2013 report, the Philadelphia RO was 
just 20 percent compliant with the operational area's review. 
You visited many--you visit many regional offices annually; why 
do you believe that this particular RO dropped so significantly 
since your 2009 review?
    Ms. Halliday. I believe that there were approximately 90 
vacancies when we were in there that existed. That has a 
serious impact on operations. I believe employee morale and the 
distrust embedded in the Philadelphia VARO has a lot to 
contribute to that.
    Mr. Runyan. Thank you. And also the testimony commented 
that when allegations of duplicate claims payments were 
reviewed, it was not management's priority to address improper 
payments. I think this is tremendously offensive to the 
taxpayer. A balanced workload is also not a priority. We can--
as can be evidenced by inattention paid to dependency claims 
and appeals.
    If neither workload management nor fiscal stewardship are 
priorities, what do you see as the priorities there? Just to 
get it out?
    Ms. Halliday. I believe what is driving this is to meet 
production metrics, at the expense of making the right 
decisions and processing a veteran's claim according to how it 
should be processed.
    Mr. Runyan. All right. I think most of us would probably 
agree with that.
    Next question is for Ms. Ruell. And thank you again for 
coming and providing your testimony. I would say that every 
time I have spoken to you, and I think Ms. Rubens has commented 
on it, you shine a light on something else that needs to be 
fixed. And, you know, going through that, I would wonder that 
Ms. Rubens may start to have lunch with you on occasion to 
figure out what the pulse of the office is.
    I would say Congress and the American people are aware of 
the relationship you highlighted previously. Your previous--you 
previously testified that you were targeted by managers, and 
your name was given to those who turned in for wrongdoing. You 
were suspended, you needed reasonable expectations, and you 
were denied promotion, and you were better qualified than other 
candidates. As of July, the treatment of employees and veterans 
by their--the management of the Philadelphia RO was a national 
embarrassment, and based on the OIG testimony, the hostility of 
the workplace persists without remedy.
    Can you describe to me any steps that leadership in the RO 
has taken to make an office place where employees can feel safe 
in suggesting new practices, or blowing a whistle on 
wrongdoers?
    Ms. Ruell. I don't think that anybody that worked in the 
Philadelphia Regional Office feels safe whistleblowing. I can 
honestly say it is not a good thing, it is a terrible 
experience that you have to go through because even some 
employees will treat you a certain way because they are mainly 
worried about getting a promotion. So Diana Rubens has had town 
hall meetings with employees, however, employees, on a daily 
basis, report to me and say that they don't feel like anything 
is changing. So the problem is if--I believe since she has 
come, she is open, if I send her an email, she responds. If I 
tell her a problem, she attempts to address it, but she has 
said to me, and I can see with my own eyes every day there, 
that she can't micromanage the entire Philadelphia Regional 
Office. So I believe that nothing is going to change at the 
place that we work at until the people that we have to report 
to can be trusted. I don't feel, and I am speaking on behalf of 
most of the employees that are employed there, I would say, a 
very high percentage, they lost faith in the managers. I would 
never feel comfortable reporting anything to anybody in the 
front office of the department that I work at. They have done 
nothing to make any changes, and in return have come after me 
for any suggestions I have made that would never benefit me, 
that are for veterans and taxpayers. So I feel that it is not 
realistic to have to tell the director every time there is a 
problem or a suggestion, because she has to manage the entire 
building. So I don't think anybody feels comfortable 
whistleblowing or making any type of suggestions because the 
department heads are not acting the way Ms. Rubens is acting.
    Mr. Runyan. Thank you, and again, disturbing.
    I think I asked you this same question and I want you to 
elaborate some more than you did in your opening testimony, but 
talk a little bit more about no date of claim situation that 
you noted.
    Ms. Ruell. Yes. We have a virtual system where the claims 
are sometimes scanned right into the computer, and there is an 
employee that sends me an email almost every single day that 
she is working, and tells me that she finds claims in Virtual 
VA that have no date of claim. And I don't process claims on a 
daily basis, so I can't speak to any number, how many there 
are, but it is disturbing to me that every morning when this 
person does her work, some days she will have 10 or more of 
these claims, and they are claims that are sitting in the 
system that, had she not worked on another claim associated 
with it, we would have never known that claim was there. So it 
is concerning to me, number one, that this one person is 
finding these, and the other employees aren't finding them, or 
what I would say ignoring them, and I understand why they are 
doing this because you have a choice at the end of the day to 
not have a job anymore, or to get your points, so most people, 
when it is time to wrap up and go home, need to leave and they 
can't do the right thing because that would jeopardize their 
job.
    Mr. Runyan. Thank you.
    Ms. Rubens, one of the stunning realities that has emerged 
from this past year of trouble at the VA is the extent to which 
managers are willing to retaliate against employees who blow 
the whistle on questionable conduct of their leaders, or even 
just offer constructive criticism of policies and procedures. 
We have just heard more testimony from Ms. Ruell about ERO's 
mistreatment of employees who expressed their concerns. At the 
July 14 hearing of the House VA Committee, addressing VA 
issues, under Secretary Hickey, said, ``intimidation or 
retaliation, not just against whistleblowers but against any 
employee who raises their hand to identify a problem, is 
absolutely unacceptable.''
    As recently as this past Monday, Secretary McDonald had 
stated that ``at VA, we take whistleblower complaints 
seriously, and we will not tolerate retaliation against those 
who raise issues which may be--which may enable VA to better 
serve veterans.''
    Ms. Rubens, if taken concerns of whistleblowers seriously, 
and assuring their fair treatment is such a priority to the top 
leader of the administration and your department, it seems to 
me with Ms. Ruell's testimony that it has not really been a 
priority of the management of the regional office to address 
the issue. Can you respond to that at all?
    Ms. Rubens. Sir, I would tell you that since my arrival, 
one of the things that I have worked to do is ensure that 
employees feel that they do have a place to come if they have 
concerns. I am most interested to hear more about the concern, 
particularly of those claims that have no date of claim. If 
they are being identified every day, we need to know about that 
so that we can identify the process.
    As I continue to build my team, and the strengths of my 
team, we will continue to work on an understanding of the 
importance of employees who bring problems forward, that they 
need to be reviewed and addressed, and they need to be done in 
a fair way. That, for us, it is about serving the veteran, and 
if we have holes in our process or gaps in our process, we need 
to know about those. We cannot accept a sense of fear or 
intimidation on the part of employees in terms of bringing 
those things forward, and I won't accept it.
    Mr. Runyan. And relating to the phrase gap, in many of your 
town halls, many veteran service officers have told you that 
the veterans office often get what they call a stall letter in 
the mail, asking for more information, when they have already 
sent in the necessary documentation.
    I know, I hear it every day, the veterans are getting 
increase--increasingly frustrating, and the frustration flows 
right back to the VSOs, and obviously, you know, the veteran is 
being denied at the end of the day.
    What are you doing to change that process to make sure that 
we are not technically, I mean, stalling. There has got to be a 
miscommunication in the way your processes work if the veteran 
and the VSOs are saying you have the data, you need to process 
a claim, but yet they are getting a letter saying they need 
more, and the stories we are hearing is many times it is 
duplicate information that they are sending back in.
    Can you talk about how you are going to challenge and try 
to change that process to make it work?
    Ms. Rubens. Yes, sir, and I would tell you part of the 
challenge is making sure that we, as an organization are taking 
enough time to review the material that we have. We have 
reduced the number of claims in our veterans service center for 
disability compensation by nearly 5,000 claims over the last 
year, but we can't do that at the cost of quality and accuracy 
of the decisions. We continue to engage in training. This year 
we took part in nationally-sponsored training due to the funds 
provided by Congress at the beginning of this calendar year. We 
will continue to build that expertise within our organization 
because we have to ensure we are looking at the material we 
have. If there are systemic issues, we will work to identify 
whether they are individuals, whether they are teams, whether 
they are different kinds of work, and ensure that the training 
is addressed to ensure that if we have the material, we are 
ready to make the decision.
    Ultimately, it is about the quality and the timeliness of 
that decision we make on behalf of each and every individual 
veteran.
    Mr. Runyan. And I am just--really just make a statement and 
I am going to hand it over to Ms. Titus.
    From data manipulation to telling an acting RO director to 
ignore congressional staffers, there is always an excuse and it 
always seems it is misinterpretation or a misunderstanding.
    From where I have--where I come from and the way I was 
brought up, stepping up and saying you were wrong is the first 
step to fixing it, and I don't think we--I don't think anybody 
gets the sense that anybody is willing to do that a lot of 
times. You are like, well, you know, well, we will fix it this 
way. Admit you were wrong and fix it, and I think it will go a 
lot further in building the confidence and the trust back in 
the VA.
    And with that, I will yield to the Ranking Member, Ms. 
Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Ms. Ruell, your comments about you don't think anything is 
going to change, and that people are still very frightened and 
uncomfortable working there, are very concerning to me, 
especially after we heard the new secretary say this is a 
priority, you heard General Hickey say it is a priority, you 
heard Ms. Rubens say that she is trying to meet with employees 
and wants to hear your story. You really don't believe it is 
getting any better?
    Ms. Ruell. No, because I don't think Ms. Rubens can fix all 
of the problems in the regional office because she has a 
management team under her that is responsible for different 
departments, and the people that are in charge, at least in my 
department, I still see them doing things to make numbers and 
not to care about a veteran. An example is an end product 407 
claim. I just raised a question last week to my supervisor 
because the--there is something called an informal claim. If 
you look at the legal definition of an informal claim, it has 
to be something that is not substantially complete. If you then 
turn and look at the definition of substantially complete, 
there are about five criteria; one being a statement of income. 
To me, the word statement is singular. I looked at an 
application that a veteran has filled out, and there is an 
income block with about maybe 15 different types of income, 
maybe 10, I am not sure. There is net worth and there is 
income. Our managers are instructing the coaches, which are the 
next level of managers, which are instructing their team, to 
informalize claims if all of the income is not there.
    Now, that is not what the law says. The law says you need a 
statement of income. Once we have that, we have a duty to 
assist that veteran and get the extra information on the claim. 
Instead, we are informalizing the claim and sending them a 
letter, which is probably what Mr. Runyan was referring to as a 
stall letter, saying thanks for your application, however, it 
is not a formal claim, you have a year to come back. Well, then 
the claim will come in with a new date of claim. So I get those 
claims and I pick up the phone and I call the veteran, even if 
I am just doing a quality check on the claim or I am 
authorizing, and I ask--sometimes there are only two things 
missing on the application. To me, that is a substantially 
complete application.
    I raised that question and I was told the VA interprets a 
statement of income as all of the income section filled out, 
because the whole section is their statement of income.
    So what I see, based on management in my department, is 
they will interpret any rule or any law to their benefit to get 
an end product cleared. And it bothers me because an end 
product being cleared is not helping the veteran. And when I 
come to work, I thought we were supposed to help veterans, so 
it upsets me when I am given an answer like that because I 
don't--the way that I was trained, I did go to law school, to 
read a statute or a law, it is not the way that the managers 
are interpreting laws in my department. And I don't know what 
you can do about that because when I raise the issues, in the 
past I have been told please don't make any more suggestions, 
or do you think I don't know how to do my job. And then there 
are consequences, so I just sort of, for a while, stopped and 
made my suggestions through other people that they respect more 
than myself, but I feel most employees see this and they have 
no interest when they notice something is wrong in bringing it 
up.
    Ms. Titus. Well, that sounds like that can be a policy 
change in terms of how you interpret the--but we have heard a 
lot about how you measure performance and how you hold 
employees accountable, and many of the employees of the VA are 
veterans themselves, and a lot of promotion or merit or bonus, 
or whatever you want to call it, is based on certain metrics or 
certain statistics. You think that is not a good way to do it, 
it sounds like, and I can see that. If you fill out more cases 
and pass them on, and you get more of a bonus because it looks 
like you have done more. What would you suggest would be a 
better way to evaluate real accomplishment and real service to 
our veterans?
    Ms. Ruell. I would like our office to be measured on the 
amount of people we help or give an honest answer to, instead 
of how many claims are cleared in a month because, if you look 
at the performance and if you really look into the system, you 
get a certain amount of points for completing a case.
    Ms. Titus. Yes.
    Ms. Ruell. There are different types of cases we process 
and different teams. Someone can be on a team and have to do a 
case that has to do complex income calculations and write a 
letter that is 10 pages, and someone else will have to do a 
case where the veteran dies, and they have to hit one button 
and some--even sometimes there is a system-generated letter 
that goes out. Well, people don't want to do the cases that 
take longer because they are not going to get their production 
element at the end of the day, so they are constantly looking 
for things that are easier. And I see it, I am on the quality 
team, and at the beginning of the month you see the kind of 
claims that are done. You will see a lot of bad dead people at 
the beginning of the month because know their quality is going 
to be pulled.
    So I think it is a horrible way to measure at the regional 
office, because I don't feel that we are doing the best we can 
to serve veterans. I think we are boasting about numbers.
    Ms. Titus. Yes. I would ask Ms. Halliday, that report that 
you all are working on that is in progress is very damning. I 
mean I don't see much in there that brags about what is 
happening. And I know when you all issue a report, you issue 
very specific things that need to be addressed. For example, 
you talk about the health environmental safety conditions at a 
couple of these call centers. Not only is that bad for the 
employees, it is bad for the records because they can't be kept 
secure.
    As you go through this report, are you issuing those 
recommendations now, and are they being addressed and is there 
a timeline, or do we have to wait until the whole report is 
finished?
    Ms. Halliday. We have adopted a practice within the OIG to 
issue management notices to the Under Secretary for Benefits 
when we find issues that we think need immediate attention. So 
my first management advisory, when I put a team in there right 
after June 19, was to address the Fast Letter. A second 
advisory was issued on the facility conditions at that other 
facility that houses the call centers. Based on the information 
we provided, we felt we had sufficient evidence to be right on 
what we were saying, and our expectation is that immediate 
action would take place. With the first advisory, after I put 
the team in on date of claim, I made a personal phone call to 
the Under Secretary for Benefits to say you have a problem. And 
I didn't want any surprises on her part, I wanted her to know I 
expected immediate action. Then, that following week, I went up 
to the VARO myself to make sure my team was moving forward with 
allegations and that people would talk with us and not have 
fear of reprisal. I made a personal visit to the Philadelphia 
VARO to make sure that people were aware that there were 
protections, and we needed to hear exactly what was happening 
so we could fix the systemic problems.
    So we do use a process that gives early notification. We 
may tweak some of the recommendations as we get the final 
details associated with reviews of duplicate payments that 
might have something specific that we haven't spoken to yet, 
but there was a sharing of information with that goes to the 
VARO on duplicate payments so that they could take immediate 
action, and then we will address character what we saw in the 
report and lay the facts out so that any, if appropriate, 
administrative actions can be taken.
    Ms. Titus. And then if actions have been taken during the 
interim while you are working on the report, will it reflect 
that as well?
    Ms. Halliday. We won't say that in the report.
    Ms. Titus. Yes.
    Ms. Halliday. I think that there are some confidentialities 
with disciplinary actions taken where individuals are involved. 
We are going to make a recommendation that we see a need for 
appropriate action. But addressing confidential information 
could compromise the ability for a removal action, if 
appropriate.
    Ms. Titus. And, Ms. Rubens, are you working on some of 
these things that you all have been notified of along the way? 
Some came before you were there.
    Ms. Rubens. Thank you, ma'am. I appreciate the opportunity 
to respond.
    In fact, when Ms. Halliday traveled to the Philadelphia 
Regional Office, VBA's Deputy Under Secretary and I both 
accompanied her to make sure that there was a clear 
announcement that we wanted everybody to feel comfortable 
talking with the IG. Mr. Punmil [phonetic spelling] actually 
indicated that if someone had a different sense, to let him 
know as well, so we were working very much to make sure it was 
going to be an open opportunity for employees to engage with 
the IG. Upon receipt of the notice of the conditions at the 
call centers, I would tell you I was just getting on board and 
had been eyeing some space in our current building that had 
recently become vacated by the Social Security Administration. 
My thinking was we needed to get our call centers back. 
Frankly, their second management advisory was a big lever from 
my perspective. We have already engaged General Services 
Administration, we have acquired the space and are beginning to 
work to fit it out so that we can get those call center folks 
back into the building right away.
    From scanning completed claims to addressing returned mail, 
my guidance was immediate. We needed to address these things, 
and ensure that the process was in place not to let these 
things occur again. And so we continue to look for any of that 
feedback. We just got a list yesterday from the IG regarding 
the specific duplicate claim payments that they have 
identified. I have got that out with my staff already, working 
to identify which claim type it is, with a guard--sorry, a 
guidance that we will not have another inaccurate duplicate 
payment go out with action--without action having been taken 
before the end of this month, whether that is to provide due 
process, or whether that is to stop one of those duplicate 
payments. And so every time we get something substantive, we 
are working, we are not waiting for that final report, we are 
going to take action immediately.
    Ms. Titus. That is encouraging.
    Well, Ms. Ruell said that she can't go to you, she can't 
expect you to micromanage, but it is at the middle level that 
people need to kind of change direction or renew trust, or 
respond to people who are working at her level.
    How--what are you going to do to change that middle level 
that is under you, but is in charge of different divisions 
perhaps that needs either to be removed or trained, or 
inspired, whatever it might be?
    Ms. Rubens. Correct. And I would tell you that part of my 
goal is to make sure that I had a chance to try and meet, and I 
have invited, and we have got nearly 1,000 folks, have invited 
individually folks to come and sit and talk with me. I have 
begun to compile some of the trends that I am hearing and the 
concerns that folks have. That said, if their allegation is as 
serious as Ms. Ruell has identified, I do want you to come to 
me. And while I may not be able to do everything all at once, 
those things that are this critical I need to know of 
immediately so that I can set that right. And in the meantime, 
as I move forward completing meetings with all employees, I 
will begin to engage at all levels of the regional office, 
well, how do we address what I have heard, both from a 
leadership standpoint in terms of how are we bringing 
consistency, and how we engage with employees and communicate 
with employees from my level all the way down, and ensure that, 
in fact, we get beyond that concern and fear that I have heard 
here today, because I do believe that we have got a lot of 
awesome employees in the Philadelphia Regional Office who come 
to work every day with that focus on how do they help a 
veteran. And we need to make that environment conducive to 
doing just that.
    Ms. Titus. One last quick question, Mr. Chairman.
    Ms. Halliday, we have heard it so many times when we have 
looked at specific regional offices that this report is just 
Philadelphia, or it was just Reno, or it was just Phoenix, but 
then you look a little further and you find it is systemic, 
that some of the same problems exist no matter where the 
regional office is.
    Do you anticipate that is going to be the case, or you know 
that is the case based on some of your findings in 
Philadelphia?
    Ms. Halliday. We do know that to be the case. We designed 
protocols to look at each VARO, but we are consistently 
tweaking those based on what we learn from site to site.
    I will tell you at the July House hearing I said that we 
had gotten 6 serious allegations from VAROs. We are working 
through those. The interesting thing is they are all different, 
and some were systemic, some were caused by one person 
misinterpreting regulations. But my Benefits Inspecting teams, 
they take all of what we have learned from site to site, and 
then we design protocols to make sure we will capture this.
    What Ms. Ruell said about no data claim, that is being 
factored in to how we are moving forward to look at this.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Runyan. Thank the gentlelady.
    The testimony on operation and management of the 
Philadelphia RO, I think everybody agrees, remains concerning. 
Though the OIG's final report has not been finalized, I kindly 
ask that all parties remain prepared to address the concerns 
raised today in greater detail once we have a chance to review 
that final report.
    Again, thank you all. You are now excused, and we will 
welcome the second panel to the table.
    Ms. Titus. Mr. Chairman, the gentleman was trying to ask 
you a question.
    Voice. I said do you have any questions for us. If not--
okay.
    Mr. Runyan. All right, at this time I welcome Panel Two. 
Mr. Tafe and Mr. Dorrity, thank you both for your coming and 
your testimony today. We--your written statement will be 
entered into the hearing--your complete written statement will 
be entered into the hearing record.
    And with that, Mr. Tafe, I will now recognize you for 5 
minutes for your testimony.

                    STATEMENT OF WALTER TAFE

    Mr. Tafe. Chairman Runyan and Ranking Member Titus, thank 
you for allowing me to provide testimony to the committee 
surrounding the issues at the Philadelphia Regional Office, and 
problems that we veterans service offices encounter filing 
claims.
    It is my strong belief that the effective communication and 
honest communication about the failures of the system, and--as 
well as an examination of some success stories, could lead to 
an improved and expedited claim process that will serve the 
veterans of our community with the commitment and integrity 
they have earned and that they deserve.
    Over the past several years, I have witnessed a steady 
decline in the service provided by the Philadelphia Regional 
Office. Timely posting of claim information, process 
development--process and development, rating decisions and 
final approval or disapproval have become a protracted and 
unmanageable process. What should be a brief process has turned 
into several months, and sadly, often exceeds a year. The 
communication between the regional office and the 
geographically separated veterans services offices was badly 
broken. Phone calls and emails were going unanswered, and I 
suspect mail was not being opened or processed.
    In providing meaningful testimony and helpful information, 
I want to avoid the impression that I am throwing stones at the 
VA, however, we veterans service offices are the ones who stand 
face-to-face with the veterans every day, trying to explain a 
system of endless errors and bureaucracy that simply cannot be 
permitted to continue.
    A major area of concern is communication between the 
regional office and the veteran. Often letters sent by the VA 
are confusing and contradictory. During the development stage, 
it is not uncommon for a veteran to receive multiple letters 
asking for the same information already provided. To comply 
with the multiple requests, the veteran will often resubmit the 
same information, slowing down the process. Each letter sent to 
the veteran allows an additional 30 day time to reply, which 
guarantees another full month added to an already lengthy 
delay.
    From my point of view, there are several areas that require 
immediate attention. Posting of dependent information is a 
prime example. A veteran's compensation is increased depending 
on the number dependents he or she has. The processing of this 
simple form can add hundreds of dollars to a veteran's claim. 
Processing of this claim currently takes 9 months to a year for 
completion. A veteran--to a veteran, a few hundred dollars a 
month is meaningful, and his or her frustration grows as the 
months pass.
    Another area requiring immediate attention is paying the 
veteran retroactive pay due to withholding actions because of 
receipt of military retired pay. Veterans who receive 
retirement from the military service have their retroactive 
payment withheld until the VA verifies with the Defense Finance 
and Accounting Office that a double payment has not occurred. 
This retroactive payment can sometimes be over $100,000. During 
the processing, this payment can take up to 9 months to a year 
after approval from DFAS has been verified and payment is due.
    Imagine if you will, if someone owed you $100,000 and 
failed to pay you month after month, as your expenses mounted 
and your bills piled up. It is easy to see why elderly veterans 
feel the VA is simply waiting for them to die.
    When a veteran owes the VA money, they move to collect the 
debt almost immediately, but when the tables are turned, the VA 
is unable to make outstanding payments in a timely manner. Some 
improvement has recently been noted, but not enough. Often, 
dependent indemnity compensation, a pension that the VA 
provides to the widow or widower of a veteran who dies of a 
service-connected illness, are delayed due to bureaucratic 
requirements that have no impact on the outcome of the claim.
    The mass--the vast majority of these claims are 
straightforward cases that could be resolved in a manner of 
weeks, but instead, they end up taking months and months to 
process.
    If a veteran is compensated for the same illness that he or 
she dies from, it should be a simple matter of verifying the 
cause of death listed on the death certificate and approving 
the claim. These claims are often delayed for foolish and 
insulting questions. One example is Mrs. Jen Stanley who comes 
to mind. Mrs. Stanley was married to a veteran for 56 years, 
and was rated 100--he was rated 100 percent for cancer. The 
cancer was listed as the cause of death on his death 
certificate. She filed her claim within 1 month of his death. 
The approval for DIC was delayed for months because she failed 
to notify the VA whether or not she had remarried within the 
first month following her husband's death, after 56 years of 
marriage.
    Pensions for low income veterans are another area for 
immediate attention, as they take far too long to process. With 
the information that we can file--we have been informed, we can 
file a financial hardship if the veteran is in financial need, 
however, it can pretty much be said that any veteran filing for 
a low income pension can be said to be experiencing financial 
hardship. I can't speak for the turnaround for the VA for 
completing claims; I can only speak to my experience and that 
tells me that the process is hardly the picture of efficiency.
    Sadly, the majority of veterans have completely lost faith 
with an institution that was established to protect their 
rights and make amends for their injuries.
    All is not doom and gloom, however, and I would be remiss 
if I did not say some improvements are being made, and some 
workers are totally dedicated to the veteran community. I am 
hopeful that the new recent town hall meeting--outreach 
meetings will foster a better relationship with veteran service 
offices, and give veterans the feeling they have their voices 
being heard. The Philadelphia Regional Office are now holding 
meetings are out location with the veterans service offices to 
directly listen to our issues.
    Assigning a public contact person to each county is a 
dramatic move, and I think will tremendously aid us, and I 
appreciate that having happened.
    In closing, let me thank you for allowing a slight use of 
my--slight overuse of my allotted time, but it is my feeling 
this is not a situation that can be resolved by throwing money 
at it or replacing the secretary. The problem that exists can 
be found in the regional office, and their midlevel supervisors 
must held accountable. Many members of the regional office are 
in positions of leadership, and the time has long passed for 
them to take on the role they have been entrusted with and 
lead.
    I thank you for your time today.

    [The prepared statement of Walter Tafe appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Tafe.
    Now recognize Mr. Dorrity for his testimony.

                   STATEMENT OF JOHN DORRITY

    Mr. Dorrity. Thank you, Mr. Chairman, and, Ranking Minority 
Member, Ms. Titus.
    Rhetoric v. Reality: The Philadelphia VA Regional Office. I 
am a combat disabled Vietnam vet. If I may, Mr. Chairman, I 
would like to read my testimony into the record.
    Thank you.
    Mr. Runyan. So ordered.
    Mr. Dorrity. I am a combat disabled Vietnam veteran. I have 
served my fellow veterans, their spouses and children, in the 
capacity of an advocate and claims representative since 1982. I 
am the past president of the National Association of County 
Veteran Service Officers, and I am also their past national 
service director. I am the president of the New Jersey 
Association of Veteran Service Officers, and district commander 
of VFW District 12, aside from my being the director of the 
Ocean County Veteran Service Bureau for over 20 years.
    And it is extremely easy to single out a particular RO and 
point to problems within that agency without offering 
solutions. Ladies and gentlemen, true resolution requires a 
semblance of the truth. Truth be told, the inadequacies that 
claimants experience under the jurisdiction of the Philadelphia 
Regional Office are endemic to the entire, and systemic to the 
entire VA system of process and adjudication. Some of the 
particular problems that the claimants experience with this RO 
are duly executed power of attorney form, VA Form 2122, or VA 
Form 2122-A, are not scanned and recorded into the claim file 
in a timely fashion. This problem, due to the Privacy Act of 
1972, does not allow effective communication from the field rep 
and the rating specialist to other personnel stationed at the 
RO.
    With the utilization of the paperless initiative under 
former Secretary Shinseki, copies of rating decisions, to 
include rating sheets, are denied the field rep by hard copy. 
Unless they are authorized to use the veterans benefit 
management system, VBMS, without the rating sheet in particular 
available to the field rep, we, who sit across the desk from 
the claimant on a daily basis, are left in the blind, and 
misinformation and adversity to the VA by the veterans 
community abounds. This may seem like a correctable situation 
with the onus of responsibility put upon the field rep, but the 
authorization process is complex and laborious. At best, case 
in point, as I amble through the process of authorization to 
utilization VBMS myself, I have to physically count every POA 
whom I represent presently. I am halfway through the alphabet, 
and I am nearly at 2,000 claimants. This physical counting 
procedure has taken, so far, 3 weeks of my time, even with the 
assistance of two members of my staff who write claims. They 
are taken from that.
    There is a new electronic initiative, the PC-3 program, 
that became available in December 2013. We in the field were 
not notified until June 2014. Training on the use of this 
system has yet to be announced. Ineffective communication from 
the top down, in my experience in combat, kills people. 
Translated to this process, it delays our compliance with this 
paperless system. The late adjudication has just denied those 
and their families who have put themselves in harm way--harm's 
way so the rest of us can enjoy freedom.
    The inordinate amount of time that it takes to adjudicate 
the claim has literally taken its toll on the veterans 
population. The tens of thousands of veterans and their 
families whom I have had the honor and privilege to represent 
over the decade, of those, I have had at least 3 to 4 dozen 
claimants die while waiting for a VA decision on the claim, as 
recently as this year.
    Now, we can extol the virtue of the electronic initiative 
to fully develop claim process FDC, the VA Form 21-526EZ, the 
BVD claims, et cetera. These claims are a quick turnaround time 
for recently released veterans. What about the World War II 
vet? What about the Korean vet? What about the Vietnam vet? 
What about all those vets in between? They did not have access 
to their service medical records or healthcare, or the 
production of any evidence or documents that will support their 
claims. What if all the aforementioned veterans' memory of 
events is questionable? The oldest claim I have in my office is 
11\1/2\ years old. We still have a backlog of those claims. 
Dismiss it if you will. I will keep fighting it.
    Appeals still take 2 to 3 years to be heard, and when they 
are, and when they are with a judge's order to expedite the 
claim, I feel that no one in the entire VA system knows the 
meaning of the word expedite. I realize that this issue goes 
beyond the RO, but maybe we should also look into the 
interaction between the RO and the Board of Veterans' Appeals.
    I would be remiss if I did not complement the Pension 
Management Center director, Gary Hodge, and his staff for their 
efforts on behalf of my claimants. If I call or email, they are 
right on the problem. The same kudos should be afforded the 
RO's insurance center. I do not mean to besmirch the 
compensation component or any other operational component, for 
that matter, of the RO. I know we do our best. So too do I know 
we can do better. Electronic answers from the VA central office 
are no substitute for hard work in the field.
    I am familiar with the new RO director, Ms. Rubens. I hope 
that she can address the issues of all we field reps. The 
recent town meetings are a good first step. There should be 
more. Understand that if government is truly--is to truly serve 
the people, as we reiterate constantly, then it is in those 
peoples' interests that we are true partners. My associates 
are, for better or worse, opine employees that are grossly 
underutilized by the VA in general.
    Ladies and gentlemen, you should notice by now that I do 
not refer to the ongoing problems of the VA process as a 
challenge. A challenge is me trying to re-enlist in the 
military on 9/12/2001. These problems have been inherent within 
the claims process of the VA since I began my voyage of 
assisting other veterans and their families over 3 decades ago. 
They have not gotten better. We just create new dialogs and the 
problems are not adequately addressed as our attention is drawn 
elsewhere. I do not believe that there are mean-spirited people 
within the VA who would subjectively deny entitlements to a 
Claimant. I believe that the process implemented through the 
former secretary and his staff in the Ivory Tower to address 
the backlog and a rating system were, and still are, based upon 
phony statistics. Many of those statistics were the product of 
a performance bonus program. Are you serious? I have attended 
many meetings in the central office, not with the purpose of 
tearing the system down, but to point out deficiencies and 
offer any method that would make the system less frustrating to 
the Claimant. It took a whistleblower VA medical center 
employee to open up the eyes of America and Congress to the 
workings of gaming the computer in order to receive a bonus? 
Okay. Okay. That was the Veterans Health Administration, VHA. 
The same performance bonus system is available within the 
Veterans Benefit System, VBA. To me, it is blood money. It is 
the blood of my fellow veterans that we are talking about here, 
the people who pay our salaries. They deserve better.
    Thank you for this opportunity to speak today, and I will 
not, even if the rest of you, pay no attention to these 
problems, systemic and endemic, within the claims process, rest 
on my claimants until the last breath leaves my body.
    Thank you.

    [The prepared statement of John Dorrity appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Dorrity.
    And with that then we will open up another round of 
questions. And I am going to start with Mr. Tafe. And again, 
both of you, thank you--thank you both for your testimony. 
Thank you both for your service for what you do for our 
veterans, and thank you both for your service----
    Mr. Tafe. Thank you.
    Mr. Runyan [continuing]. And what you do to ensure that our 
veterans get what they need, earned and deserve.
    Mr. Tafe, what I heard in your testimony about the 
Philadelphia RO disappoints me greatly, but, frankly, doesn't 
surprise me. Several veterans and service officers who attended 
the recent town hall in Camden described the same trends you 
described in your testimony; receiving letters asking them to 
resubmit information or documents, sometimes multiple times. 
They described those, as I mentioned to the earlier panel, as 
stall letters.
    Can you tell me how often you get these stall letters, and 
what the effect it has on the veteran and you, and your 
colleagues' ability to do your job?
    Mr. Tafe. Congressman, I can't tell you how many times it 
happens because I--it is just so rampant, I couldn't possibly 
keep track of it, but I can tell you that on so many occasions 
veterans will call me and they will say, well, you were 
supposed to send that stuff in and now they are asking for it 
again. Why didn't you send it in? And it is extremely 
frustrating for us in that role to be viewed as not doing our 
jobs when someone else isn't entering information. I will say 
that e-benefits, the information is not loaded in a timely 
manner at all, but the letters keep going back and then the 
veteran loses trust with his veterans service officer, and 
begins sending duplicate information back to the VA again, just 
stalling the process longer and longer. That is one of the most 
frustrating things is when the--when everything is completed, 
to keep sending letters requesting information from the 
veteran. It is so frustrating, Congressman, I can't tell you 
what it feels like to lose a veteran's trust because they 
believe you are not sending the information in. And sometimes I 
just want to let you know that I have sent information 3 times 
and 4 times, and called to verify and they say, no, we don't 
have it. I have faxed the information over and have the receipt 
in my hand, and they say, no, that's not in there, Mr. Tafe. 
That is frustrating.
    Mr. Runyan. I would agree. But it is--and I think both of 
you kind of mentioned in your testimony, but, Mr. Tafe, again, 
it was--glad to hear that you have some good experiences, the 
excellent service from Anita Broski at the Philadelphia RO, and 
Janet Wilder of the Newark Regional Office. On the other hand, 
you mentioned that the leadership of the Philadelphia RO needs 
to be held accountable for its steady decline in service over 
the past years--several years.
    Have you brought concerns to the regional office leadership 
at any of the town hall meetings, and if so, what response have 
you been given?
    Mr. Tafe. I have only attended one town meeting recently; 
the one held in Camden, and I did speak with Ms. Rubens, and I 
made some suggestions that have already been implemented, which 
is really favorable to me. The assignment of Ms. Broski as our 
representative of Burlington County is tremendous. She is an 
outstanding individual, and, in my mind, should be an example 
of what the employees at the VA should be. Also, the--I have 
asked that we have--instead of us veterans service officers 
traveling to the regional office in Philadelphia to listen to 
their meeting about all the statistics, and much of the 
information given only is relevant to the veterans service 
officers that work in the regional office, I asked that they 
please schedule meetings for us service officers. I would host 
them in my location or at John's location, and that they would 
come to us and just have us veterans service officers who are 
geographically separated. Ms. Rubens told me that was going to 
happen, and I--yesterday, I received an email saying that they 
wanted to set the first meeting up, so I think that is a very 
favorable move for us.
    Mr. Runyan. Okay, and finally, one last question for you 
and then I will move on to Mr. Dorrity.
    As Ms. Rubens is the new director of the RO, it remains to 
be seen what actions she will take to address the existing 
ineffective management as the new leader, and what level of 
effectiveness those actions will enjoy. Do you have any advice 
from your extended experience with the Philadelphia RO to offer 
on the onset of her new assignment?
    Mr. Tafe. I think one of the most important things, you 
know, in my mind, and I am a military man for 30 years so I am 
pretty straightforward, as a command chief, if somebody didn't 
do their job, they didn't do that job for very long, they were 
removed. And all the talk about additional training and team 
building and everything, this is a problem that has manifested 
in that office for years and years, and some people need to 
either adapt or go home. And I think I mentioned in there, I 
think with the important work that the VA has to do, they have 
room for two types of employees; either outstanding or out the 
door, and that is just my personal opinion.
    Mr. Runyan. Thank you.
    Mr. Dorrity, again, thank you again for your service on----
    Mr. Dorrity. Thank you.
    Mr. Runyan [continuing]. What is it, about 90 different 
levels?
    Mr. Dorrity. Something like that.
    Mr. Runyan. Okay. You have heard the perspective of the 
Philadelphia RO director and others, including fellow 
accounting service--veteran service directors. In your own 
experience with the Philadelphia RO with respect to 
communication and--what has been your own experience with the 
Philadelphia RO in respect to communication and delays in 
claims processing?
    Mr. Dorrity. Well, thank you for that question, 
Congressman.
    It has been poor to miserable prior to, prior to Ms. Rubens 
coming there. I am expecting change. I am expecting meetings, 
as Walter indicated, in his office and hopefully my office. We 
hold state meetings every 2 months. Surely, she is welcome to 
come to those, and so too is everyone else. As a matter of 
fact, we serve pizza.
    I can say, and I believe that I issued it in my testimony, 
that there are certain operational components within the VA 
that I have spoken to over the years. The Pension Management 
Center, since Gary Hodge has been in charge, it has been easier 
to work with him. I actually have a list of people and 
extensions I can call on certain issues. Some are better than 
others. And it is the same with we service officers. The 
Insurance Center, if I send a one-sum payment in, it is usually 
done within a week. The DIC, the pension, this year I had a 
gentleman who was a World War II vet, I put in for a pension 
for him, he died 4 months later. Absolutely no reason, no 
reason why he wasn't afforded pension. I put in for widow's 
pension for his wife. I got a great decision. Took me 6 months 
to get them paid. So there are delays in payment.
    I have heard a lot of the issues of the employees of the 
VA, and I understand that. There is politics in every office, 
your own included. I don't know how to build the morale of 28--
280,000 employees of the VA, but I know it can be really 
distressing at times from our perspective to have claims that 
are really no-brainers delayed. Irrespective of what the 
electronic system says to you, I can tell you that after 30--
almost 33 years of being a practitioner of my craft, the 
average processing time on a claim is a year. Pension shouldn't 
take that long. Shouldn't take that long. And compensation, 
definitely. The redundancy of VCAA, well, we have to live with 
that. I have had the same experience of Walter; submitting 
claims three and four times. They don't show up on VBMS. Well, 
if this electronics system is all it is touted to be, what the 
hell is going on? You know, my computer is as good as my gun. 
It depends on who is using it and what they are using it for.
    My experience with Philly has been getting better, let me 
put it that way, and I anticipate that it will get better, and 
I am sorry I talk so much. Thank you.
    Mr. Runyan. I know you too well, so understood, but just 
one last one, and it kind of goes to culture, and maybe both of 
you can comment on it because I think it is something that, in 
this electronic world, I think we lack a little bit, but----
    Mr. Dorrity. Oh, yes.
    Mr. Runyan [continuing]. I have heard at many of the recent 
town halls that many of you have reported lack of 
communication, responsiveness from the RO. Do you agree with 
the veterans also that have said that they feel like sometimes 
they were dealing with faceless bureaucrats on a daily basis? 
Because I always--when there is a personal connection, there is 
usually a little incentive behind it.
    Mr. Dorrity. Congressman, I think we have had this 
conversation before, but faceless is good. It used to be 
mindless. It is faceless now. I am a bureaucrat. I am a very 
uncomfortable bureaucrat because of the face that we present.
    There is no doubt about it, if there was not a veteran, 
there would not be a VA. People wouldn't have jobs. Are they 
faceless? Yeah. My suggestion to the VA as a whole is get out 
there. There used to be a VA secretary, Jesse Brown. It may be 
before a little bit of your time, some of you guys may know 
him. He is a great guy. And he would do things like I would do 
them. He would put on his old field jacket, his dungarees, 
glasses, go into the VA, ride the buses, go to the VDA, you 
know, just see how things were going. He never got noticed. I 
would do the same thing, and people would walk by and they 
would say, hi, Mr. Dorrity, how you doing, you know? I mean 
there was a difference in how we did it, and maybe I was better 
known than the secretary at the time, but he tried to put a 
face on the VA. Unfortunately, he passed away a few years ago.
    I think what, you know, we are the face of the VA. We are 
not VA employees, but you come into my office and you get this 
redundant, stupid letter, stupid letter, all of a sudden, 
Walter or John, hey, you never sent my stuff in. Wait a second, 
let us read it. It says that they received all this stuff. They 
are asking for additional information. The Veterans Claims 
Assistance Act was a--was the--a great Act. It overturned 
Morton v. West, which I believe is the beginning of the 
backlog. Morton v. West was a Court of Veterans Appeals 
decision that really screwed up the works here.
    I think what the VA can do, Congressman, to make it brief, 
if I have ever been that, is to get out there more. To get out 
there more. Come to our state meeting. I try and engage not 
just the talking heads, but the veterans population. Hell, I 
throw food out there for them. Everybody comes to a meeting 
where you are going to eat, except today's. But that being 
said, I--it is a bureaucracy, yes, it is faceless. Any number 
of rating specialists can handle a claim or pass it along. I 
truly believe that the bonus system is an affront to the 
American taxpayer, and maybe that is where some of our mistrust 
of this system as a whole.
    I can tell you this, I have come to the conclusion lately 
that I don't trust the system, but I trust people within the 
system, from a personal perspective. Thank you.
    Mr. Runyan. All right, Mr. Tafe.
    Mr. Tafe. Congressman, if I might, first, I want to tell 
you the food that John offers is not that good, however----
    Mr. Dorrity. It is cheap, buddy.
    Mr. Tafe [continuing]. I would like to say though, I don't 
know so much about the matter of faceless because there are so 
many veterans and so many employees, but all that I would ask 
is answer the phone, return the message when you say you are 
going to, and answer the email when it is sent. At least they 
know there is somebody at the other end. What is extremely 
frustrating is recordings at some of the VA offices that say 
please leave your name and your number and we will call you 
back. That call never takes place, and that is a shame. If they 
will answer the phone, answer the email and answer the 
question, and if it doesn't happen today, it happens tomorrow 
or the next day, at least they know somebody is listening, and 
that, I think, is very important.
    Mr. Dorrity. May I Segway off that, Mr. Chairman?
    Mr. Tafe. No.
    Mr. Dorrity. No, but the 1-800 number, the National Call-in 
Center, many of my claimants refer to it as 1-800-NO-CAN-DO, 
because you will sit on the phone. People get hung up on. They 
don't get responded to, as Walter had said.
    Look, the simple thing is, as we are speaking as people, 
the--we have to have that human connect. If we don't have that, 
we have nothing. We have nothing.
    Mr. Runyan. Thank you both.
    And with that I will yield to the Ranking Member, Ms. 
Titus.
    Ms. Titus. Well, thank you, Mr. Chairman.
    I share some of your frustration because most of the 
veterans in the valley live in Las Vegas, that is where the 
population is, and yet the regional office is 8 hours away in 
Reno. That is a long trip across a lot of desert to get there, 
so veterans just feel like they have no connection whatsoever. 
And so then they turn to other places and they come to 
congressional offices because they don't feel like anybody is 
listening.
    Mr. Tafe, also, this business of some of the bureaucracy of 
bureau--the red tape, in other words, I learned that when a 
person is notified of a ruling on a claim, they have I think it 
is 30 days to ask for an appeal, then the VA has 30 days to 
send them the form, then they have 30 more days to send it 
back. Why don't you just put the appeal form in the original 
letter when you send it out, and that takes away that 60-day 
problem in the beginning? That is just commonsense.
    We had a Bill to do that. It passed our committee, passed 
the House, now the VA is doing it. It is just some commonsense 
things that could make a difference.
    I am glad to hear about the town meetings, and also about 
the county officers. I think we should be sure that every 
regional office does that, not just Philadelphia, so we need to 
get that word out. But I would ask you this, we are talking 
about communications, you have the Federal VA, then you have 
the regional offices, you have State Departments of Veterans 
Affairs, you have the VSOs, you have the Congressional Offices, 
and now you have all these charities, it is a big thing to be a 
charity supporting veterans these days. Lot of them get grants 
like U.S. Vets. They do good work.
    What can we do so that they all aren't working in different 
directions, aren't duplicating efforts, right hand doesn't know 
what the left hand is doing, to better coordinate all of these 
services so we can serve veterans better?
    Mr. Tafe. Right. I think one of the starting points is that 
the VA, and this starts in the regional office, but they 
certainly have to know who is representing the veteran, and I 
can tell you that my mail goes all around the state. When they 
do send it, I go down to John's and he will give me 20 letters 
that went to his office, and I will take them up to Mercer 
County or wherever, or to the state office, because we have the 
New Jersey Department of Military and Veterans Affairs, and we 
have the County Veterans Service Offices of New Jersey, it is 
very confusing, but they need to keep track of that. That is 
what they get paid to do.
    As for the charity organizations out there, I think that 
one of the issues that I have known dealing with some of the 
charity organizations is a lot of people want to help veterans 
and it is very popular thing to do, but they haven't defined 
what it is they want to do other than help veterans----
    Ms. Titus. Yes.
    Mr. Tafe [continuing]. And that can very, very cumbersome 
to try to deal with those. They will come in and say--I will 
say what is your mission statement, and they will say, well, we 
are developing it.
    Ms. Titus. Yes.
    Mr. Tafe. Well, that makes it more confusing for a veteran 
to know who to turn to for help when they are not, you know, 
they are not even certified yet or know what their mission is.
    Ms. Titus. Some of them are not legitimate either----
    Mr. Tafe. Absolutely.
    Ms. Titus [continuing]. And they prey on collecting money 
from people who think, sure, I will donate if it is to help a 
veteran, and then none of that money really goes to veterans.
    Maybe we need better clearinghouses of information and the 
regional offices of who is out there, what they are doing, 
where you go, what the phone numbers are, who to call, that 
sort of thing.
    Mr. Tafe. Right.
    Ms. Titus. Mr. Dorrity.
    Mr. Dorrity. Yes. May I address a couple of comments you 
made, Ms. Titus?
    First off, there are only two sacrosanct time frames within 
the VA. When I get a decision, I have 1 year to file a notice 
of disagreement. That is the first step in the appeal process. 
Now, that takes a year, so let us put that on top of the year 
it took to get to a no decision. Okay, so that takes a year. If 
we resolve the issue within that time frame, terrific, 
wonderful. If not, if not, and there are people sitting in the 
room whom I have trained over the years, then they have to 
issue a statement of the case. So there is no 60-day turnaround 
time until--unless the one year has elapsed from the decision 
time.
    We have to be understanding of the process before we can 
make assertions, and put legislation on the table that is 
meaningless----
    Ms. Titus. Yes.
    Mr. Dorrity [continuing]. Or meaningful. Okay. That being 
said, if it is beyond the year time frame from the decision 
letter, irrespective of good, bad or indifferent, then I have 
60 days to respond to the appeal.
    Now, my office is a culture of get it done, try not to 
inconvenience the veteran. We have the largest number of 
veterans in New Jersey living in Ocean County. We have the 
largest number of veterans in New Jersey over the age of 65, 
believe it or not. More than Nevada. Nevada. I say it right? 
Okay, thanks. It is unconscionable that, on average, an appeal 
takes 2\1/2\ to 3 years to be heard, because you have that 2 
years, then you have 2\1/2\ years and----
    Ms. Titus. Yes.
    Mr. Dorrity. And my friends in the VA can dispute it all 
they want. Boy, I can run through an easy claim. I can run 
through a fully developed claim if you got out yesterday, but 
if I have a 92 year old vet, like I had sitting in my office 
yesterday, 70 years ago, boy, I can't remember what I had for 
breakfast. It--the process--the measures that are put in place 
to eliminate this backlog, the first thing I would say to the 
secretary, a number of years ago I noticed that if you go on 
VA.gov and you Google in Monday morning workload, that gives 
you the backlog. During the former secretary's tenure, one of 
the things he did, and I know Rick Shinseki well, he is a--and 
he is a really good guy, a really good guy, but he is gone. One 
of the things they did is they revised the Monday morning 
workload.
    So, Congressman, you and I have had this discussion about 
what is the true number of the backlog, and I believe Ms. 
Rubens addressed it before, she said rating and non-rating 
claims. When you guys see 600,000, all you are seeing is rating 
claims. There are non-rating claims. I get Walter 30 percent. 
He is married with two kids, I have to put in a 686C for 
dependency. That is a non-rating issue. I hand in his marriage 
certificate, form filled out, signed by him, his kids' social 
security cards, a copy of them, pay the man. Why does a non-
rating issue take up to 6 months? They used to take 30 days or 
less, or a little more.
    There are a number of problems within the entire system. 
Philadelphia is just one of the sources. I believe the IG said 
they are looking at every RO.
    Ms. Titus. Yes.
    Mr. Dorrity. That is important.
    As far as the nonprofits go, I have written letters of 
support for a number of them, some of them you guys may be 
familiar with, and they have gotten their grants from the VA. 
Throwing money at the problem, putting a band aid on my jugular 
when it is cut is not going to stop the bleeding, ladies and 
gentlemen. Direct pressure is. Okay?
    I believe that the former secretary's statements that he 
was going to knock this backlog down and cure homelessness 
amongst veterans by 2015 are ridiculous. Are ridiculous. 
Totally absurd. There is no truth to it. You can assert 
anything you want, doesn't mean you are going to get there.
    I have found--and I can poke holes in the electronic 
initiative of the VA consistently. I could. I could. As 
recently as yesterday. The charity organizations, maybe a 
clearinghouse is in order, but I am hesitant to add layers of 
bureaucracy on top of bureaucracy myself. Is it the VA's 
responsibility? I don't know that it is. Maybe VHA, Veterans 
Health Administration, if we are talking about a project like 
Soldier On, or Shriner House, Homeless Veterans.
    Ms. Titus. Yes.
    Mr. Dorrity. A great illustration we have, we are fortunate 
enough in Ocean County to have an organization called Vet Worth 
that I started working with when I started this career. I 
didn't start working with them, I was a volunteer. And they are 
an illustration, if the VA really wants to look at how to cure 
homelessness, they should look at the New England Shelter for 
Homeless Veterans. There are project out there; we don't have 
to keep reinventing the wheel. The mousetrap works, believe me. 
I took a mouse out this morning in the trap. Works. Works. We 
don't have to keep inventing stuff. What we have to do is 
admit, and my illustration before with the backlog is, and I 
can never get this across at my meetings in DC., admit there is 
a problem. Thank you, Mr. Chairman. Say there is a problem. I 
screwed up. Let me straighten it out. Hell, I do that every 
day. Everybody thinks I know everything. When you think that 
way, you know nothing. You know absolutely nothing. I have run 
into arrogance, and don't take offense, most of the arrogance I 
have run into in the VA comes out of Washington.
    Look at VACOLS, the appeal system. The backlog in the 
appeal--by the way, that 11\1/2\ year old case is mine. It is 
at the BVA. I had a hearing 6 years ago. I am still waiting for 
expedited service, as the judge ordered. So if it is happening 
to me, how many folks out there is it happening to, you know. 
And I applaud the VA for allowing me to expedite a claim based 
on homelessness, terminality, financial hardship, they will at 
least consider that, or if I am sitting in front of a judge, as 
I will be in a couple of weeks, filing a motion to expedite a 
claim based on age. But that serves my 92 year old vet, that 
doesn't serve Walter. Are his due process rights not the same 
as mine and that 92 year old vet, and the EC claims? Aren't we? 
If we are not, great, but I think we are.
    Thank you.
    Ms. Titus. Thank you, Mr. Dorrity. I certainly honor your 
service, and I appreciate your enthusiasm, but I have to 
disagree with your final statement. I think it was a little 
unfair when you said that we may ignore what we are hearing 
here today, but you would never do that. Well, Mr. Runyan and I 
are not ignoring this, or we wouldn't be here and holding these 
field hearings and being very concerned, as you are, about 
these problems.
    Mr. Dorrity. And I respect your disagreement. I have been 
doing this for quite a long time and I have provided testimony 
on a number of bases, and as I said, I never apologize for my 
words, I am sorry that you may be offended. I know the good 
work that my congressman has done. I truly do.
    Ms. Titus. Thank you.
    Mr. Chairman.
    Mr. Runyan. The gentlelady yields back, and I thank her.
    Thank you all for being here with us today. The panel is 
excused. I appreciate everyone's time and attention that went 
into preparing all of your remarks today, and ask you all to 
keep up the communication with this subcommittee because this 
is how we are going to get this fixed. I also ask unanimous 
consent that all Members have five legislative days to revise 
and extend their remarks, and include any extraneous material. 
Hearing no objection, so ordered.
    I thank the Ranking Member, Ms. Titus, for her attendance 
today, and I am so pleased she took the time out to travel 
across the country and join us here in south Jersey.
    With that, this hearing is now adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]

                                APPENDIX

               Prepared Statement of Jon Runyan, Chairman

    Good afternoon and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    Usually when we hold our DAMA Subcommittee hearings, we are sitting 
in Washington.
    Today, I am honored and happy to be here with all of you at 
Burlington County College, here in my District, and where I am proud to 
call home.
    Although we are far away from our normal hearing room on the Hill 
and the CSPAN cameras, this is still an official Congressional 
oversight hearing of the House Veterans' Affairs Committee, and hearing 
rules of conduct apply.
    Today's hearing will focus upon the Philadelphia Regional Office.
    In July, the Full House Committee on Veterans' Affairs held a 
hearing that revealed disarray and data manipulation at the 
Philadelphia Regional Office.
    Accordingly, today's hearing will update upon the situation at this 
Regional Office, including concerns on mismanagement, manipulation to 
make the backlog of claims appear smaller, and exceptionally low 
employee morale.
    A Regional Office employee, from another part of the Nation, 
recently shared an impression--he said that Regional Office structure 
has an excess of ``management,'' and a complete void of leadership.
    I think that observation is telling when we look at what has been 
going on at the Philadelphia Regional Office.
    Ms. Rubens is here today, as a new Director of this R-O, and I hope 
that she will develop this needed leadership at the Regional Office . . 
 
    Because, up to this point, I am convinced that change is neither 
desired, nor sought, by complacent management in Philadelphia.
    Thus, this morning's hearing will also address whether the 
Philadelphia R-O Director has taken appropriate measures to address the 
failures that we have recently heard about--and whether the Director is 
prepared to act swiftly and appropriately in response to VA O-I-G's 
forthcoming report.
    Continued claims of ``misunderstanding'' are simply not 
believable--even if they were, it would show such a level of gross 
incompetence that disciplinary action would be necessary . . . Nobody 
is fooled.
    I look forward to hearing from the Regional Office, as well as the 
Office of Inspector General, and the input of various interested 
individuals and organizations that will speak today.
    With that, I will begin introductions. Seated at the witness table, 
we have the first panel. First, Ms. Kristen Ruell, Authorization 
Quality Services Representative, at the Pension Management Center,
    Ms. Linda Halliday, Assistant Inspector General for Audits and 
Evaluations, Office of Inspector General,
    Accompanied by Ms. Nora Stokes, Director of the Bay Pines Benefits 
Inspection Division, Office of Audits and Evaluations;
    Mr. Al Tate, Audit Manager of the Atlanta Audit Division, Office of 
Audits and Evaluations; and Mr. Jeffrey Myers, Benefits Inspector with 
the San Diego Benefits Inspection Division, Office of Audits and 
Evaluations.
    Panel One also features Ms. Diana Rubens, Director of the 
Philadelphia Regional Office.
    Once concluded, we will move onto Panel Two, which will consist of 
Mr. Walter Tafe, Director of the Burlington Department of Military and 
Veterans Affairs, and Mr. John Dorrity, with the Bureau of Veterans 
Services, Ocean County, New Jersey.
    I thank you all for being with us today and I now yield to our 
Ranking Member, Ms. Titus, for her opening statement.
    Thank you, Ms. Titus.
    At this time, I formally welcome our first panel to the witness 
table. Your complete written statements will be entered into the 
hearing record.
    Ms. Ruell, you are now recognized for five minutes--please proceed.
    Thank you, Ms. Ruell.
    Next we have Ms. Halliday. You are now recognized for five minutes.
    Thank you, Ms. Halliday.
    Ms. Rubens, you are now recognized for five minutes--please begin 
when you are ready.
    Thank you, Ms. Rubens.
    I will begin the questioning and then will recognize the Ranking 
Member and our other Members, alternating in order of arrival.
    I now recognize the distinguished Ranking Member for any questions 
she may have.
    Thank you Ms. Titus.
    The testimony on the operations and management of the Philadelphia 
Regional Office remain alarming, though as noted, O-I-G's final report 
has not yet issued on current investigations.
    I kindly ask that all parties remain prepared to address concerns 
raised today in greater detail once we all have a chance to review that 
report.
    Thank you all again, and you are now excused from the witness 
table, and we will seat our second panel.

    At this time, I welcome Panel Two, Mr. Tafe and Mr. Dorrity, thank 
you for coming to testify at today's hearing.
    We appreciate your attendance today and your complete written 
statement will be entered into the hearing record.
    Mr. Tafe, you are now recognized for five minutes.
    Thank you, Mr. Tafe.
    Mr. Dorrity, you are now recognized for five minutes.
    Thank you, Mr. Dorrity.
    I will begin questions for the second panel, and will again 
recognize the Ranking Member.
    I now recognize Ms. Titus for any questions she may have.
    Thank you Ms. Titus.
    Thank you everyone for being here with us today, and Panel Two is 
now excused.
    I appreciate your time, and the attention that went into preparing 
your remarks for today and I will ask you all again to keep 
communication open with this Subcommittee.
    I also ask unanimous consent that all members have five legislative 
days to revise and extend their remarks and include extraneous 
material. Hearing no objection so ordered.
    I thank Ranking Member Titus for her attendance today, and I am so 
pleased that she took the time to come out and visit us here in 
Southern New Jersey.
    This hearing is now adjourned.

                        Prepared Statement of Kristen Ruell

    My name is Kristen Ruell. I testified July 14, 2014 in Washington, 
DC regarding gross mismanagement and violations of law occurring at the 
Philadelphia Regional Office. I want to thank you for the opportunity 
to be heard today regarding the Philadelphia RO and regret to inform 
you that things have not changed and accountability is greatly lacking 
for the management officials involved in the alleged illegal behaviors 
previously reported.
    As a result of a preliminary OIG investigation, Fast letter 13-10 
was rescinded. The practices of data manipulation have continued at the 
Philadelphia RO. Instead of creating an end product with an altered 
date of claim, there are many instances where claims are in the 
computer and have no dates of claims as if we never received them from 
a Claimant. These veterans are worse off because before they had a 
false, altered, new date of claim and now they have no date of claim. 
If the claim is old, I am seeing many instances where it is not placed 
under control at all, which affects the VA's average days pending.
    The duplicate record problem has not changed. I was informed that 
VSOs are now able to create dates of claims, which are creating 
duplicate records. E benefits is creating duplicate records as well. A 
colleague of mine, Ryan Cease, has reported this to the VA Central 
Office, but to date has heard nothing regarding a policy change.
    On July 14, 2014, I testified to boxes of claims that were 
processed in 2011 and were not scanned into Virtual VA, the Veterans 
virtual claim file system in place at the VA. Management scanned the 
sixty something boxes of thousands of claims into the system but did 
nothing to rectify the Veterans denied for not having information that 
was sitting in the boxes for nearly 4 years. There is no way to track 
people affected by the management decision to let those claims sit for 
years.
    The returned mail that was boxed up with the claims stamped 
``Cannot ID'' were thoroughly reviewed and most employees that were on 
the project informed me that a majority of the claims could be 
identified with a few minutes of attention to detail and some claimants 
were getting retroactive benefits as a result of papers labeled 
``cannot ID'' and had this not been reported, these boxes would have 
been shredded after being held the required one year timeframe. 
Employees also reported to me that they were given timelines to 
complete a box, when the timeline was not reasonable. One employee 
resigned after the project because he felt extremely stressed and 
rushed. I have received spreadsheets from concerned employees that are 
afraid to speak up regarding the Returned mail project. One employee 
went back and checked his spreadsheet and noticed that a number of the 
cases he marked ``required action'' have still not been cested and no 
action has been taken, although management stated the project is 
finished.
    I have seen the reasonable accommodation process get worse for 
employees with disabilities. I feel as though the management team in 
the Pension Management Center should be removed from the process 
altogether, because they are creating liability on behalf of the Agency 
due to their inability or overt actions to fail to follow EEO laws. 
There is no reason for them to follow the law, because the Agency uses 
taxpayer monies to pay off employees that have been wronged and at best 
sends the management official to a training, for them to return to the 
office and target their next victim, with no consequences.
    I have lost faith in the Department of Veterans Affairs. I have not 
seen any accountability for the managers responsible for the violations 
that were investigated by the VA OIG. They are still entrusted with 
making decisions with our taxpayer monies and on behalf of our nations 
Veterans when they have admitted they cannot understand simple fast 
letter language and have left thousands of pieces of Veterans claims 
dating back to 2008 in white boxes with no action taken to grant or 
deny benefits. There is no training that can instill morals in these 
managers. They seem to be playing by a different set of rules and using 
our taxpayer dollars to have free legal representation when they are 
failing to provide timely accommodations for disabled employees and 
benefits to the Veterans that put their lives on the line for our 
nation. Employees repeatedly say to me that nothing is going to change 
here and refuse to report wrongdoing because they feel that there is no 
accountability and they will end up being targeted by the people they 
reported.
    It is my sincere hope, as a citizen of the United States of 
America, that the Department of Veterans Affairs holds management 
accountable for retaliation toward whistleblowers and any alleged 
wrongdoings that are substantiated in the upcoming report from the VA 
OIG.

                                 
                Prepared Statement of Linda A. Halliday

    Chairman Runyan and Ranking Member Titus, thank you for the 
opportunity to discuss the results of the Office of Inspector General's 
(OIG) work related to the Veterans Benefits Administration (VBA). We 
will focus on previously issued reports regarding the Philadelphia VA 
Regional Office (VARO), as well as recent situations that have come to 
our attention through the VA OIG Hotline and directly from current and 
former VARO employees. I am accompanied today by Nora Stokes, Director, 
OIG Bay Pines Benefits Inspection Division; Al Tate, Audit Manager, 
Atlanta Audit Division; and Jeffrey Myers, Benefits Inspector, San 
Diego Benefits Inspection Division.

Background

    Delivering timely and accurate benefits and services to the 
millions of veterans who served in our Nation's Armed Forces is central 
to VA's mission. The Philadelphia VARO is responsible for administering 
a range of benefits to 825,000 veterans and their families living in 
eastern Pennsylvania, Southern New Jersey, and Delaware. These services 
include administration of compensation and pension, loan guaranty, 
national call center services, and vocational rehabilitation and 
employment benefits--programs that annually total approximately $4.1 
billion.
    The OIG's Benefits Inspection Program was created at the request of 
Congress in 2009 to review individual VARO operations. We are on 
schedule to complete a review of each VARO approximately every 3 years. 
Our inspections focus on high-risk functional areas within each VARO's 
Veterans Service Center (VSC) such as disability claims processing, 
management controls, workload management, eligibility determinations, 
and public contact. In addition, our inspectors identify and report on 
systemic issues impeding VARO performance, including examining issues 
or allegations referred by VA employees, Members of Congress, VA 
leadership, or other stakeholders. Upon completion of each inspection, 
we issue a report to the VARO Director on the results and publish a 
report with the Director's comments. We completed benefits inspections 
of the Philadelphia VARO in October 2009 and again in August 2012.
    In May 2014, we received a number of allegations through the VA OIG 
Hotline of mismanagement at the Philadelphia VARO. We were concerned 
that many of these allegations included indicators that VARO staff have 
a serious mistrust of VARO management. Based on our initial assessment 
at the VARO, we performed an unannounced visit to the Philadelphia VARO 
on June 19, 2014, and issued a Management Advisory Memorandum on June 
20, 2014, to alert the Under Secretary for Benefits (USB) of situations 
requiring corrective actions (Exhibit A). Shortly thereafter, OIG 
issued another notification to the Under Secretary on July 23, 2014, 
outlining concerns about facility conditions at the VARO facility 
located at 4700 Wissahickon Avenue.
    To summarize, from the date of our unannounced visit to the 
Philadelphia VARO on June 19, 2014, until our last visit on August 15, 
2014, VA OIG benefits inspectors, auditors, and criminal and 
administrative investigators conducted over 150 interviews with VARO 
management and staff to assess the merits of over 100 complaints and 
allegations of gross mismanagement and potential wrongdoing. In 
general, most staff we interviewed felt the working environment at the 
Philadelphia was hostile and did not trust management because they felt 
they were not treated fairly or with respect. Generally, employee 
complaints addressed a broad range of issues including unfair work 
assignments; discriminatory practices based on disability, race, and 
gender; and denial of a reasonable accommodation request. Our work 
related to these allegations is ongoing, therefore we must limit our 
testimony today to our two prior benefits inspections and the concerns 
raised in the management advisory notices to the USB.

OIG Benefits Inspections of the Philadelphia VARO

    Since we first began benefits inspections of VAROs in April 2009 to 
present, we have conducted 93 benefits inspections at VAROs and have 
consistently reported the need for enhanced policy guidance, oversight, 
workload management, training, and supervisory review to improve the 
accuracy and timeliness of disability claims processing and VARO 
operations.
    During our first inspection of the Philadelphia VARO in October 
2009 we reviewed claims processing actions related to claims for 
temporary 100 percent disability evaluations, post-traumatic stress 
disorder, traumatic brain injuries, and herbicide exposure-related 
disabilities.\1\ The overall inaccuracy rate for the 120 claims 
reviewed was 33 percent, resulting in improper payments to 14 veterans 
totaling just over $475,000. Moreover, we identified 21 errors with the 
potential to impact veterans' benefits if left uncorrected, and 4 other 
miscellaneous errors. We made other recommendations for improving VSC 
operations, the safeguarding of veterans' personally identifiable 
information (PII), and the processing of adjustments in fiduciary 
claims for veterans.
---------------------------------------------------------------------------
    \1\ Inspection VA Regional Office Philadelphia, Pennsylvania, March 
4, 2010.
---------------------------------------------------------------------------
    Prior to the start of inspections for each new fiscal year, we 
review the protocols and change as needed or appropriate. For the 
fiscal year 2012 inspections, we discontinued our review of post-
traumatic stress disorder claims due to policy changes that relaxed 
stressor requirements. We also discontinued our review of herbicide-
related claims due to significant improvement in claims processing 
action associated with these types of claims.
    While conducting our second benefits inspection work onsite in 
August 2012, we reviewed claims processing actions related to claims 
for temporary 100 percent disability evaluations and traumatic brain 
injuries.\2\ In comparison with our previous inspection, the overall 
inaccuracy rate for the 60 claims reviewed in 2012 increased slightly. 
Within this sample of 60 claims, we identified improper payments to 4 
veterans totaling $194,130 and 18 errors with the potential to impact 
veterans' benefits if left uncorrected. Additionally, we reported that 
VARO staff did not comply with VBA policy when processing health care 
entitlement decisions for Gulf War veterans. This report also included 
recommendations for the VSC to improve its homeless veterans outreach 
efforts. Based on information received from VBA, we closed our report 
in November 2013 indicating that they had acted on our recommendations 
in the report. The effectiveness of the actions taken by VBA will need 
to be assessed during our next inspection.
---------------------------------------------------------------------------
    \2\ Inspection VA Regional Office Philadelphia, Pennsylvania, April 
9, 2013.
---------------------------------------------------------------------------
    While the claims processing inaccuracy rates from both inspections 
were at unacceptably high levels, they remained somewhat consistent 
between 2009 and 2012. At the same time, the VARO's inventory of 
pending rating-related claims more than doubled--from 7,182 pending in 
2009 to 15,615 in 2012. Further, it took VARO staff an average of 122 
days in 2009 to complete rating-related claims whereas in 2012 it took 
288 days to complete similar work. Despite the increase in inventory 
and time to process claims, the VSC experienced a reduction of 94 
positions from April 2009 to March 2014. Based on repeated areas of 
non-compliance with VBA policy, we remained concerned about the VARO's 
ability to process high-risk disability claims accurately and timely.
    During our 2012 inspection, we also found that the Philadelphia 
VARO management team continued to face multiple challenges within the 
Veterans Service Center. These challenges included the need to improve 
oversight of operational activities, gain control over workload, and 
improve the accuracy of disability claims processing.

Comparison to Other VA Regional Offices

    Our benefits inspection protocols are designed to review disability 
claims processing actions we consider at increased risk of processing 
errors. Therefore, our inspection results do not represent the overall 
accuracy of disability claims processing at the VAROs. Noteworthy, to 
date, none of the VAROs inspected have been totally compliant with all 
operational areas reviewed. The following offers a comparison of our 
Philadelphia VARO inspection results with those of other offices 
previously inspected in the same time frame.

        <bullet> October 2009 Benefits Inspection: From April 2009 
        through September 2010, we published 16 VARO inspection 
        reports. Of the 16 VAROs on which we reported, the Jackson, 
        Mississippi. VARO had the highest level of overall compliance 
        (70 percent) with VBA policy in the areas inspected. The 
        Philadelphia VARO was the 6th most compliant of 16 VAROs 
        inspected, with an overall compliance rate of 55 percent when 
        our report was published in March 2010.
        <bullet> August 2012 Benefits Inspection: From January through 
        September 2013, we published 20 VARO inspection reports. Of the 
        20 VAROs, the Milwaukee and Denver VAROs had the highest level 
        of overall compliance (80 percent). The Philadelphia VARO was 
        tied with five other VAROs for being the 13th most compliant, 
        with an overall compliance rate of 20 percent when we published 
        our report in April 2013.

Allegations of Mismanagement

    Since May 2014, we received numerous allegations regarding the 
operations of the Philadelphia VARO. Allegations included a broad range 
of issues such as ``cooking the books,'' referring to data manipulation 
and taking actions that appear to reduce workload backlogs, mail 
mismanagement, and potential duplicate payments. Further, one 
allegation raised concerns that the Fast Letter 13-10 guidance issued 
by VBA provided opportunities for ``cheating'' on the dates of 
mishandled claims (Exhibit B). Several allegations raised concerns of 
inappropriate reprisals against whistleblowers. This led us to make an 
unannounced visit to the VARO on June 19, 2014. Since our June 2014 
work began, we expanded our work to include reviewing allegations of:

        <bullet> Staff not timely scanning documents into Virtual VA, 
        the electronic claims repository.
        <bullet> Staff inappropriately shredding or destroying military 
        and returned mail that could not be delivered.
        <bullet> Staff hiding mail within the VARO.
        <bullet> Staff ``cherry picking'' and processing easily 
        appealed claims out of order, potentially misrepresenting 
        performance.
        <bullet> Staff not addressing over 32,000 electronic inquiries 
        from veterans and beneficiaries.

    The paramount issue is the Fast Letter guidance. In issuing this 
guidance, VBA deviated from its longstanding policy of establishing 
dates of claims, which adversely affected claims processing for many 
VAROs across the Nation. By design, the Fast Letter guidance required 
claims processing staff to apply current dates to older claims 
previously overlooked. Many of the Philadelphia VARO staff told us they 
took exception to this Fast Letter guidance on adjusting dates of 
claims and thus we concluded those actions were inherently contrary to, 
the VA core value of integrity.

Philadelphia VARO and Fast Letter 13-10

    VBA uses dates of claims within the electronic processing 
environment to control and manage its claims inventory and generally 
prioritize which cases staff will process first. VBA policy states that 
the date of claim is the earliest date a claim is received at a VA 
facility. Each document VA receives in any of its facilities or 
locations where it has a presence must be annotated with the date of 
receipt. Incorrect application of dates of claims results in delayed 
claims processing actions and compromises the integrity of reported 
time it takes VARO staff to process claims.
    On May 20, 2013, VBA issued Fast Letter 13-10, which provided an 
exception to this longstanding date of claim policy. The Fast Letter 
guidance advised staff to adjust dates of claims for unadjudicated 
claims to a more current date, that is, the date each claim was 
``discovered'' in the claims folder. VARO staff were to use a special 
designator, ``Unadjudicated Claims Discovered,'' to identify these 
unprocessed claims in the electronic record. Without this electronic 
label, VBA staff cannot identify claims where the dates of claims were 
adjusted under the new guidance. The Fast Letter also reminded staff to 
consider the earliest date stamp shown on the claim document when 
determining the effective date for benefits payments--a requirement VBA 
staff must follow for all claims, found/discovered or otherwise. 
Additionally, the Fast Letter required the VARO Director or Assistant 
Director to approve each adjusted date of claim and send an email 
notification to VBA Compensation Service.
    During our onsite review beginning June 19, 2014, we identified 30 
instances where the Philadelphia VARO's Pension Management Center (PMC) 
staff adjusted dates of claims using the Fast Letter guidance. However, 
in some of the cases, we determined staff had misapplied the guidance. 
The following are examples of how VARO staff misapplied the guidance.

        <bullet> PMC managers instructed claims processing staff to 
        apply the ``date discovered'' rule to manage their backlog of 
        mail.
        <bullet> PMC staff cancelled claims that were already 
        established and pending in the electronic record and 
        reestablished the claims using current dates. PMC staff were 
        already aware that the claims existed, so they should have used 
        original date of claim not the ``date discovered'' rule. Such 
        actions made the average days that claims were pending appear 
        better than if staff had used the original dates the claims 
        were received.

    While the VARO Assistant Directors signed the memorandums approving 
the adjusted dates of claims to recent dates, they did not provide the 
required notification to VBA Compensation Service after VARO staff 
adjudicated the claims. Philadelphia VARO management indicated the Fast 
Letter guidance was confusing as their explanation for misapplying the 
guidance. We disagreed and felt the guidance provided in this 3-page 
Fast Letter was clear even though it deviated from longstanding policy 
that ensured consistency and accuracy regarding how long a veteran 
waited for his or her claim to be processed.

Mail Management Concerns

    During our initial walk-through of the VSC during an unannounced 
visit in June 2014, we found mail bins full of claims and associated 
evidence that had not been scanned into Virtual VA since 2011. We 
became concerned that evidence located in these mail bins was needed 
for processing future claims because until the documents are scanned, 
claims processing staff may be making decisions without all of the 
required evidence.
    Another concern centered on the electronic date stamps used by PMC 
staff at the Intake Processing Center to record dates of claims on the 
documents received. Management told us that each claims assistant 
maintained a key that allowed access to the mechanism inside the stamp 
where they could adjust the electronic date. As such, the opportunity 
existed for staff to misrepresent dates of claims. Although we did not 
find any instance during our limited review where staff changed the 
electronic dates, we did find one instance where the electronic date 
stamp incorrectly stamped documents with a future date. Management 
indicated they were aware of this problem and had instructed staff to 
cross out the incorrect date stamps and re-stamp the documents with the 
correct dates of claims.

Duplicate Records and Payments Allegations

    VARO staff also showed us several instances where veterans or their 
dependents received duplicate payments resulting from duplicate records 
in VBA's electronic system. We were told that this is an ongoing 
problem, both in the PMC and the VSC. Although management was aware of 
this issue, it was not a priority to make corrections in spite of the 
potential for improper payments.
    In our report, Audit of VBA's Pension Payments (September 4, 2013), 
we substantiated that VBA's corporate database contained duplicate 
pension records, and that these duplicate records occurred because VBA 
relied on PMC staff to identify pre-existing records prior to creating 
a new record. VBA did not have system controls in place to prevent 
users from creating duplicate records. As of September 30, 2014, 6 of 
the 8 recommendations in this report remain open.

VBA's Response

    The USB agreed to do the following to address the issues that we 
reported on:

        <bullet> Issue a moratorium on Fast Letter 13-10 while VBA 
        determined the appropriate way to move forward.
        <bullet> Prioritize scanning the claims and associated evidence 
        we identified in mail bins into Virtual VA.
        <bullet> Establish a key control point, limiting employees' 
        access to keys for electronic date stamps.
        <bullet> Prioritize the correction of duplicate claims to 
        reduce the risk of potential improper payments.

    We plan to follow up on the corrective action taken in future 
benefit inspections.

Facility Conditions

    Based on numerous complaints we received from VARO staff about the 
physical conditions in which they work, we dispatched a group of 
administrative investigators to the Philadelphia VARO. VARO employees 
told us, and by our own observations, we learned of unacceptable 
conditions at the VARO workspace located at 4700 Wissahickon Avenue. 
According to employees, the environment within this building (a 
separate building located close to the main VARO) has adversely 
affected employee health, morale, and productivity. Based on our own 
observations, we identified several areas that violated VA's 
Occupational Safety and Health (OSH) standards, leading the OIG to 
issue a Management Implication Notification to the Under Secretary on 
July 23, 2014, outlining these concerns. For more details on the 
conditions, please see Exhibit C which is attached.
    We recommended the USB take immediate action to ensure that the VBA 
workspace at 4700 Wissahickon Avenue complies with VA's OSH directives 
and handbooks, occupational safety and health requirements contained in 
Federal laws, regulations, and Executive Orders. We also advised that 
the Under Secretary ensure the protection and safeguarding of all 
veterans' records.

Conclusion

    These are challenging times for VA in general and VBA specifically, 
as they attempt to work through the compensation claims backlog while 
simultaneously implementing multiple initiatives to move VBA into an 
electronic, paperless environment. From an oversight perspective, these 
process changes require an increase in oversight at all levels. 
Management involvement is critical to minimize the financial risk of 
making inaccurate benefit payments, maintain a balanced approach to 
processing all workloads, and ensure the accurate and timely delivery 
of benefits and services.
    Our work at the Philadelphia VARO is ongoing and we will issue a 
report upon completion of our work. Moving forward, the VARO leadership 
must work to restore the trust of employees and promote open 
communication. They can succeed by working transparently and engaging 
the staff to work together to deliver vital services and benefits to 
veterans and their families.
    This concludes my statement and we would be happy to answer any 
questions that you or Congresswoman Titus may have.

                                
                 Prepared Statement of Diana M. Rubens

    Good morning, Chairman Runyan and Members of the Subcommittee. 
Thank you for the opportunity to discuss operations, leadership, and 
employee morale at the Philadelphia Regional Office (RO). The dedicated 
employees of the Philadelphia RO are committed to improving the 
delivery of benefits to Veterans and their families. VA has strong 
institutional values--those mission-critical ideals and attitudes that 
profoundly influence day-to-day behavior and performance: Integrity, 
Commitment, Advocacy, Respect, and Excellence (I CARE). At the 
Philadelphia RO, we recently asked every employee to reaffirm 
commitment to the I CARE values, putting Veterans and their needs 
first. We understand our ultimate measure of success will be how we 
serve Veterans, and we are determined to succeed by regaining the trust 
of each Veteran we serve. Leadership within the Veterans Benefits 
Administration (VBA) and management at the Philadelphia RO take 
recommendations from VA's Office of Inspector General (OIG) very 
seriously, and we have actively, and quickly, worked to address issues 
that were recently raised. My testimony will outline the benefits and 
services provided by the RO and actions taken to improve operations.

Leadership and Employee Morale

    First, let me assure you that since I assumed my new duties as the 
Director of the Philadelphia RO in July, I have been and will continue 
to be committed to fostering an environment and culture where employees 
feel safe to raise issues. I am inviting all employees to meet with me 
in small groups so I can hear their concerns and respond, which is an 
approach I will continue to take as we strengthen our entire leadership 
team, creating a more inclusive environment for the entire workforce. I 
have received suggestions and recommendations from employees and will 
engage them in developing plans to address these concerns as I reach 
the end of my first 90 days in Philadelphia. The workforce is the key 
to successful benefits delivery. As we create more open lines of 
communication with our employees, the Philadelphia RO is committed to 
becoming more transparent to our Veterans and stakeholders as well.

Overview of Operations and Outreach

    The Philadelphia RO is staffed by nearly 1,000 employees, 38 
percent of whom are Veterans themselves. The RO administers disability 
compensation benefits for Veterans in 40 eastern counties in 
Pennsylvania and 7 counties in southern New Jersey. The RO also 
administers vocational rehabilitation and employment (VR&E) benefits 
for disabled Veterans in eastern Pennsylvania and manages the 
Wilmington RO in Delaware. In addition, the RO is responsible for two 
of VBA's call centers and a Pension Management Center (PMC) that 
processes pension and survivor claims for the eastern United States, 
Puerto Rico, and all foreign countries with the exception of Central 
and South America. Each month, the Philadelphia RO provides more than 
$390 million in VA benefits to over 170,000 Veterans and their 
dependents.

Disability Compensation

    The Philadelphia RO's Veterans Service Center transitioned into the 
new organizational model in November 2012. The new organizational model 
incorporates a case-management approach to claims processing, by 
reorganizing the workforce into cross-functional teams that give 
employees visibility into the entire processing cycle of a Veteran's 
compensation claim. These cross-functional teams work together on one 
of three segmented lanes: express, special operations, or core. Lanes 
were created based on the complexity and priority of the claims, and 
employees are assigned to the lanes based on their experience and skill 
levels. An Intake Processing Center, located in the Veterans Service 
Center, serves as a formalized triage activity to quickly and 
accurately route Veterans' claims to the correct lane when claims are 
first received. This model also includes Quality Review Teams comprised 
of local quality review specialists. The teams evaluate station quality 
and individual employee performance and perform in-process reviews to 
eliminate errors at the earliest possible stage in the claims process.
    The Philadelphia RO started processing claims using the Veterans 
Benefits Management System--VBA's web-based, electronic claims 
processing solution--in April 2013. Approximately 95 percent of the 
RO's rating inventory now resides in this web-based system.
    In addition, the RO is assisting our Nation's Veterans by promoting 
use of eBenefits, the Fully Developed Claims Program, and Disability 
Benefits Questionnaires. The RO is also collaborating with Veterans 
Service Organizations (VSOs) to promote these tools and encourage VSO 
representatives to utilize the Stakeholder Enterprise Portal, a secure, 
web-based connection that complements eBenefits and gives access to VSO 
representatives and other authorized advocates so that they can assist 
Veterans in filing disability claims electronically. The Philadelphia 
RO is also collaborating with the Veterans Health Administration to 
have three doctors from the local VA Medical Center located in the 
Veterans Service Center to provide medical opinions, which will reduce 
deferral rates and increase efficiency.
    This fiscal year, the Philadelphia RO provided over 28,000 rating 
decisions to Veterans who filed disability claims. The RO has already 
surpassed the number of decisions provided to Veterans last fiscal year 
by 34 percent. The 3-month, issue-based accuracy rate is currently 95.1 
percent, and the 3-month claim-based accuracy rate is currently 88.9 
percent. Veterans are now waiting an average of 179 days for a decision 
on their disability compensation claims, an 85-day or 32-percent 
improvement over the peak wait time in April 2013. Although we are not 
there yet, we are continuing to make progress toward the goal of 
completing all disability compensation claims within 125 days.
    The Philadelphia RO also has one of VBA's seven National Call 
Centers, which primarily answers calls related to compensation 
benefits. The National Call Center answers over 2,400 calls per day.

Pension Management Center (PMC)

    The Philadelphia RO manages one of three national PMCs. This fiscal 
year to date, over 269,000 rating and non-rating pension claims have 
been completed with an accuracy rate of over 97 percent. The PMC in 
Philadelphia also houses the National Pension Call Center, answering 
1,600 calls per day. The Pension Call Center provides information to 
claimants and dependents regarding pension and survivor benefits. 
Pension applicants are currently waiting an average of 75 days for a 
rating decision, an improvement of 121 days, or 62 percent, since the 
peak wait time in November 2012.

Vocational Rehabilitation and Employment (VR&E)

    The Philadelphia RO's VR&E Division is currently providing services 
to over 2,000 Veterans in Pennsylvania and Delaware, and over 100 
Veterans have been rehabilitated this fiscal year. The VR&E Division 
participates in the VetSuccess on Campus Program and has a Vocational 
Rehabilitation Counselor assigned at the Harrisburg Area Community 
College. This counselor provides outreach and counseling on benefits 
and services to over 1,100 Servicemembers, Veterans, and their 
dependents enrolled at the school.

Outreach

    The Philadelphia RO has four Military Services Coordinators who 
provide comprehensive briefings on Veterans benefits to active duty 
Servicemembers stationed at Dover Air Force Base in Delaware, Carlisle 
Barracks in Pennsylvania, and Joint Base McGuire-Dix-Lakehurst in New 
Jersey. The RO supports the Transition Assistance Program (TAP) Goals, 
Plans, Success (GPS), which is mandatory for separating Servicemembers. 
Mandatory components of TAP GPS include pre-separation counseling, two 
VA briefings on benefits, and the Department of Labor Employment 
Workshop. After Servicemembers learn about eligibility for benefits in 
the briefings, RO employees accept any applications for disability 
benefits submitted (within 180 days from separation) and ensure 
supporting documents are certified.
    In addition to military outreach, the Veterans Service Center 
conducts targeted outreach to Veterans who are homeless, former 
prisoners of war, women, minorities, and elderly. During these outreach 
sessions, coordinators distribute literature and answer questions about 
VA benefits. The Philadelphia RO provides volunteers to annual Stand 
Down events in Philadelphia, Pennsylvania; Cherry Hill, New Jersey; and 
Wilmington, Delaware, and works closely with national and county-level 
VSOs.

Steps We Are Taking To Resolve Recent Issues

    We understand that serious concerns about the operations at the 
Philadelphia RO have been raised, and I want to assure you that we 
share those concerns and are quickly taking action to address these 
issues. We take seriously our commitment to providing timely and 
accurate benefits and are working to ensure we meet this commitment for 
Veterans and their families. Our partnerships with Congress, VSOs, and 
other stakeholders are critical in meeting this commitment.

OIG Management Advisory

    On June 20, 2014, OIG issued a Management Advisory concerning 
claims processing at the Philadelphia RO. Four recommendations were 
included in this advisory. The first recommendation was related to the 
allegation that staff at the Philadelphia RO misapplied VBA Fast Letter 
(FL) 13-10, Guidance on Date of Claim Issues (FL 13-10). OIG found 
instances in which the Philadelphia RO did not enter the correct date 
of claim in some Veterans' records and recommended that VBA discontinue 
the use of FL 13-10. On June 27, 2014, VBA suspended FL 13-10, pending 
a thorough review of its implementation. VBA concurred with the other 
three recommendations in OIG's advisory and has moved to address all 
the issues raised by OIG, as detailed below. OIG has not yet issued its 
final report.
    The second recommendation was related to scanning completed pension 
claims. OIG found 68 mail bins containing completed pension claims and 
associated evidence that had not been scanned into VA's electronic 
records. These claims were completed in 2011, and it is important to 
note that no Veterans were waiting for the resolutions of these pension 
claims; in addition, the most relevant information was available within 
VBA's electronic systems. Moreover, if the original documents were 
needed for processing subsequent claims, PMC employees were aware of 
how to access those documents in the paper records. Nevertheless, in 
April 2014, the Philadelphia RO started a concerted effort to reduce 
the volume of paper records associated with completed claims needing to 
be imaged; by adding resources to this mission, we completed this task 
in August 2014.
    The June 20, 2014 OIG Management Advisory also reported on several 
instances in which Veterans or their dependents received duplicate 
payments resulting from duplicate records in VA's electronic system. In 
response to OIG's recommendation, the Philadelphia RO is prioritizing 
review of any potential duplicate payments. VA's Hines Information 
Technology Center generates monthly reports identifying potential 
duplicate payments in VBA's corporate database. One report identifies 
beneficiaries who have two running awards for the same benefit (such as 
two compensation awards), while the other report identifies 
beneficiaries who have more than one running award but for different 
benefits (such as one for compensation and one for pension). To reduce 
the creation of duplicate records in VBA's systems, the Compensation 
Service provided guidance to nationwide ROs in September 2013 on how to 
prevent duplicate records. The P&F Service provided similar guidance to 
PMCs during the February, April, and June 2014 monthly PMC calls. 
Additionally, VBA developed standardized training for field personnel 
on how to avoid creating duplicate records and how to correct the 
system when they identify a duplicate record.
    The fourth recommendation in the Management Advisory was to limit 
employees' access to electronic date stamps. To address OIG's 
recommendation, the RO changed its procedures on July 11, 2014, and 
moved date stamping into a secure mailroom. A small number of 
exceptions were permitted for the Public Contact staff and other front 
office employees. Employees continue to be assigned to specific 
machines so the RO can audit use of date stamps. All unassigned 
machines remain secured by the RO's Records Management Officer.

Proactive Steps To Address Other Recent Concerns

    In addition to the issues identified by the OIG's advisory, during 
a July 14, 2014, hearing before the House Veterans' Affairs Committee, 
allegations were made that mail was being improperly shredded at the 
Philadelphia RO. The referenced mail included returned mail (VA-
generated correspondence that the U.S. Postal Service returned because 
it was undeliverable) and ``military file'' mail (materials VA was 
unable to associate with a Veteran's record because of a lack of 
identifying information on the documents). VA became aware of these 
issues 2 years ago and, at that time, initiated steps to address the 
problem. In March 2012, VBA's Pension and Fiduciary (P&F) Service 
visited the Philadelphia RO to investigate allegations of claims 
records being destroyed. At that time, there were 126 boxes of returned 
mail needing to be reviewed and 13 file cabinet drawers of ``military 
file'' mail dating back to 2009.
    The Philadelphia PMC is in compliance with all procedures regarding 
records disposal. In 2012, procedures were put in place to ensure newly 
returned mail is addressed timely, and no additional returned mail has 
accumulated. The Philadelphia PMC has also consolidated all ``military 
file'' mail into one properly-marked location and incorporated reviews 
of that mail into weekly Philadelphia PMC workload assignments. The 
Philadelphia PMC has now completed this work, and all ``military file'' 
mail is up-to-date. By August 19, 2014, the Philadelphia PMC had 
reviewed all boxes of mail returned as undeliverable and has screened 
approximately 1,400 pieces of returned mail and identified a small 
number that need further processing.
    While the OIG was at the Philadelphia RO to conduct a thorough 
review of operations, the OIG raised a concern about the volume of 
unanswered telephone and email inquiries requesting the status of 
pending claims. In response to this concern, the Philadelphia RO 
quickly initiated an action plan to reduce the volume of unanswered 
inquiries. As a key part of the action plan, the Philadelphia PMC 
temporarily assigned ten additional employees to review and respond to 
the outstanding inquiries. Over the past 2 months, this number of 
pending inquiries has been significantly reduced, and the RO is 
currently evaluating the number of employees assigned to this activity 
to ensure the continued provision of timely responses.
    Although the final results of the OIG's review have not been 
issued, the Philadelphia RO has worked to address all issues that were 
raised with the leadership of the RO during the OIG's review.

Town Hall Meetings and Seminars

    At the direction of Secretary McDonald, the Philadelphia RO 
recently conducted four town hall meetings, including two at the 
Philadelphia RO, one in Southern New Jersey, and one in Delaware. We 
hosted these meetings to engage our Veterans and hear their concerns; 
Secretary McDonald believes these events will help us to accomplish our 
mission, live our I CARE values, and improve the care and benefits we 
deliver to Veterans. In addition to the town halls, we hosted 
informational seminars and claims clinics for any Veterans looking for 
claim-specific information. As we spoke with our Veterans, we learned 
that we need to improve engagement and communication with our VSOs, VA 
medical centers, and local National Guard and Reserve units. We found 
this experience to be beneficial, and we are conducting quarterly town 
halls to continue to engage and hear from our Veterans and other 
stakeholders.
    The Philadelphia RO was recently visited by Congressmen Fitzpatrick 
and Meehan, as well as Senator Toomey's staff. These visits have been 
valuable opportunities to exchange information and improve our 
partnership in serving Veterans. We are also scheduling seminars with 
Congressional staff and our VSO representatives for this fall to 
continue to strengthen our partnerships in service to Veterans.

Conclusion

    The Philadelphia RO remains committed to providing the best service 
possible to Veterans who reside in Pennsylvania, New Jersey, and 
Delaware. We continue to look for ways to improve our outreach and 
partnerships to provide timely, accurate, and comprehensive assistance 
to all those we serve. Mr. Chairman, this concludes my testimony, and I 
look forward to answering any questions you and the other Members of 
the Subcommittee may have.

                                 
                  Prepared Statement of Walter J. Tafe

    Congressman Runyan, Committee members, it is indeed an honor for me 
to provide testimony to this committee concerning issues surrounding 
the Philadelphia VA Regional Office and problems I've encountered 
during the claims filing process. I commend the committee, and 
especially Congressman Runyan, for their continued concern for the 
veterans of this district as well as those throughout our nation. It is 
my strong belief that our effective and honest communication about the 
failures in the system, as well an examination of some success stories, 
can lead to an improved and expedited claim process that will serve our 
veterans with the commitment and integrity they have earned and 
deserve.
    My office services Burlington County and its more than 35,000 
veterans. We serve not only the veterans of our community but, with our 
close proximity to Joint Base McGuire-Dix-Lakehurst, we also process 
the claims of National Guardsman and Reservists as they return from 
deployment. We are proud of what we do, and feel honored to serve our 
nation's best. Unfortunately, our reputation can become tarnished when 
the claims we file on behalf of our veterans are not processed in a 
timely manner, or are simply ``lost in the mail.'' I cannot count the 
number of times veterans have called me complaining that the regional 
office has not received information or claims my office has filed.
    Over the past several years, I've witnessed a steady decline in the 
service provided by the Philadelphia Regional Office. Timely posting of 
claim information, processing and development, rating decisions, and 
final approval or disapproval has become a protracted and unmanageable 
process. What should be a brief process has turned into several months 
and, sadly, often exceeds a year. The communication process between the 
regional office (RO) and geographically separated veteran service 
officers is broken. Phone calls and emails go unanswered and, I 
suspect, mail is not opened or processed. While toll-free 800 numbers 
are provided, wait time can exceed 35 minutes. With the high volume of 
clients my office services, this is simply not acceptable.
    In providing meaningful and helpful information, I want to avoid 
giving the impression that I am throwing stones at the VA. However, we 
Veteran Service Officers are the ones who stand face-to-face with 
veterans every day, trying to explain a system of endless errors and 
bureaucracy that simply cannot be explained or permitted to continue. I 
sometimes provide second, third, and fourth submissions of the same 
information only to be continually informed that it has not been 
received. Even when I fax in paperwork and have a successful send 
receipt on file, I'm still informed that the information was never 
sent.
    One area of major concern is the communication between the RO and 
the veteran. Often, letters from the VA are confusing and 
contradictory. During the development stage, it's common for a veteran 
to receive multiple letters asking for information they already 
provided. To comply with the multiple requests, a veteran will often 
re-submit the same information, slowing down the process. Each letter 
sent to the veteran allows for an additional 30-day reply time, which 
guarantees that another full month is added to an already lengthy 
delay. Simple, straightforward claims that could be completed within 90 
to 120 days are taking 6 to 9 months, and the veteran or Veteran 
Service Officer is always blamed for the delay. They either didn't 
respond to a letter (which they never received), didn't show up for an 
appointment (which they didn't know about), or didn't send an address 
change to the RO (even though they did). The list is endless, but it's 
never the fault of the VA.
    From my point of view, there are several areas that require 
immediate attention. Posting dependent information is a prime example. 
A veteran's compensation is increased depending on the number of 
dependents he or she has. The processing of this simple form can add 
hundreds of dollars to a veteran's claim. Processing this form takes an 
average of 9 months to a year for completion. I'm told by VA employees 
it is because this is not seen as a priority by the VA. To the veteran 
a few hundred dollars a month is meaningful and his or her frustration 
grows as the months pass.
    Another area requiring immediate action is paying the veteran 
retroactive pay owed due to withholding actions because of receipt of 
retired pay. Veterans who receive retirement from their military 
service have their retroactive payment withheld until the VA receives 
verification from the Defense Finance and Accounting Office that 
Concurrent Retirement Disability Payment (CRDP) has not been paid. The 
intention of this process is to ensure the veteran does not receive 
double payment. This retroactive payment can sometimes be over 
$100,000.00. Processing this payment can take 9 months to a year after 
DEFAS has verified the payment is due. Imagine, if you will, that 
someone owed you over $100,000.00 and failed to pay month after month 
as your expenses mounted and your bills piled up. It's easy to see why 
elderly veterans feel the VA is waiting for them to die. When a veteran 
owes the VA money, they move to collect the debt almost immediately . . 
. but when the tables are turned, the VA is unwilling or unable to make 
their outstanding payments in a timely manner.
    Often, Dependent Indemnity Compensation (DIC) claims--the pension 
the VA provides to the widow or widower of a veteran who dies from 
service-connected illness--are delayed due to bureaucratic requirements 
that have no impact on the outcome of a claim. The vast majority of 
these claims are straightforward cases that could be resolved in a 
matter of weeks, or even days; instead they end up taking months to 
process. If a Vietnam Veteran dies of an Agent Orange-listed illness, 
and was being compensated for the same illness at the time of death, it 
should be a simple matter of verifying the cause of death listed on the 
death certificate and approving the claim. Yet these claims will be 
held up in development for months before arriving at the rating office. 
Often these claims are delayed for foolish or insulting questions. The 
example of Mrs. Genna Stanley comes to mind. Mrs. Stanley was married 
to her husband, veteran Harry Stanley for over 50 years and he was 
rated 100 percent for cancer. When Mr. Stanley died, the cancer he was 
rated for was listed as cause of death on his death certificate. His 
widow's approval for DIC was delayed for months because she failed to 
notify the VA whether or not she had remarried after her husband's 
death. Adding insult to injury, the question was totally irrelevant 
since a widow who remarries after the age of 56 is still entitled to 
the DIC.
    Pensions for low income veterans are another area for immediate 
action; they take far too long to process. We are informed that we can 
file a financial hardship for a veteran in severe financial need . . . 
however, pretty much any veteran filing for a low income pension can be 
said to be experiencing financial hardship! I can't speak to turnaround 
the VA reports for completing claims. I can only speak to my 
experience, and that tells me that the process itself is hardly the 
picture of efficiency. I would like to tell my veterans it will take 
120 days, but the reality of my experience is that these claims can 
take up to a year.
    I can offer innumerable examples of veterans who have suffered due 
to the delay in processing claims, but time doesn't permit me to 
expound. Suffice it to say that many of my veterans have become 
extremely frustrated when hearing about bonus programs at the Regional 
Offices that reward workers for their efficiency while they face a 
seemingly endless wait for much-needed financial help. Sadly, the 
majority of veterans have completely lost faith in an institution that 
was established to protect their rights and make amends for their 
injuries.
    All is not doom and gloom however, and I would be remiss if I did 
not note some improvements that are being made and some workers who are 
totally dedicated to the veteran community. The new mail system 
recently instituted by the VA should drastically reduce lost mail. It 
is my understand mail received at the processing centers is scanned and 
send directly to the ROs. I have more confidence it this system and 
hope to see the effects in expedited claims soon.
    I'm hopeful that recent town hall outreach meetings will foster a 
better working relationship with Veteran Service Officers and give 
veterans the feeling that their voice is being heard. By simply 
enabling veterans to voice concerns directly to RO personnel, we can 
help enhance what has become a tarnished image.
    Lastly, allowing the geographically separated VSO access to the RO 
files through the Stakeholder Enterprise Portal should prove to be a 
major asset that dramatically improves communication across the entire 
spectrum.
    In the short time I have left, I would like to recognize and 
commend Ms. Anita Brodsky who has been assigned to work with our 
county. Ms. Brodsky is responsive, aggressive, and displays a very 
caring attitude. She always returns phone calls and emails, and seeks 
the VSO out when she sees anything concerning our clients that may be 
problematic. I'm comfortable that anything I fax to Ms. Brodsky will 
receive her immediate attention and confident in the professionalism 
she projects; the Philadelphia Regional Office should be proud of her 
hard work and the difference she's making every day.
    Additionally, Ms. Jannah Wilder of the Newark Regional Office, who 
recently assumed duties as a Vocational Rehabilitation Counselor, is a 
breath of fresh air. In a very short time, she has established a solid 
reputation as a person who truly cares and is totally dedicated to her 
clients. It is refreshing to work with a true professional who will go 
the extra mile to ensure our veterans receive the benefits they have 
earned.
    In closing, and let me thank you for allowing me to use slightly 
more than my allotted time; it is my feeling that this is not a 
situation that will be resolved by throwing money at it, or replacing 
the Secretary. The problems that exist can be found in the regional 
office, and their leaders and their mid-level supervisors must be held 
accountable. Many members of the Regional Office are in positions of 
leadership, and the time has long passed for them to take the role 
they've been entrusted with and lead! In today's environment, there's 
room for just two types of workers in the VA: outstanding and out 
processing! Thank you for allowing me to provide my thoughts today.

                                 

             Prepared Statement of John P. Dorrity MSW, CVA

    I am a combat Disabled Vietnam Veteran. I have served my fellow 
veterans, their spouses and children in the capacity of an advocate and 
claims representative since 1982. I am the past President of the 
National Association of County Veterans Service Officers (NACVSO, 2004-
2005), the past National Service Director (NSD, 2005-2012), the 
President of The New Jersey Association of Veterans Service Officers 
(NJAVSO, 1998-present) and the District Commander of VFW District 12 
(2013-present).
    It is extremely easy to single out a particular RO and point to 
problems within that agency without offering solutions. Ladies and 
gentlemen, true resolution requires a semblance of the truth. Truth be 
told, the inadequacies that claimants experience under the jurisdiction 
of the Philadelphia RO are endemic to the entire VA system of process 
and adjudication. Some of the particular problems of claimants 
experience with this RO are;
    1) Duly executed power of attorney forms (VA form 21-22, VA form 
21-22A) are not scanned and recorded into the claim file in a timely 
fashion--this problem, due to the Privacy Act of 1972, does not allow 
effective communication from the field rep and the rating specialist or 
other personnel stationed at the RO;
    2) With the utilization of the ``Paperless'' initiative under 
former Secretary Shinseki, copies of rating decisions, to include 
rating sheets, are denied the field rep by hard copy, unless they are 
authorized to use the veterans benefits management system (VBMS). 
Without the rating sheet, in particular, available to the field rep, 
we, who sit across the desk from the claimant on a daily basis are left 
in the blind and misinformation and adversity to the VA by the veterans 
community abounds. This may seem like a correctable situation with the 
onus of responsibility put upon the field rep but, the authorization 
process is complex and laborious, at best. case in point, as I amble 
through the process of authorization to utilize VBMS, I have to 
physically count every POA whom I represent. Presently, I am halfway 
through the alphabet and am at nearly 2,000 claimants. This physical 
counting procedure has taken, so far, 3 weeks of my time, even with the 
assistance of 2 members of my staff.
    3) There is a new electronic initiative, the PC-3 program. It 
became available in December, 2013. we, in the field, were not notified 
until June, 2014. training on the use of this system is yet to be 
announced. Ineffective communication from the top down, in my 
experience in combat, kills people. Translated to this process, it 
delays our compliance with this ``paperless'' system. Delayed 
adjudication is justice denied those, and their families, who have put 
themselves in harm's way so that the rest of us can enjoy freedom!
    4) The inordinate amount of time that it takes to adjudicate a 
claim has literally taken its toll on the veterans population. the tens 
of thousands of veterans and their families whom I have had the honor 
and privilege to represent over the decades. I have had at least 3-4 
dozen claimants die while waiting for a VA decision on their claim. Oh, 
we can extoll the virtue of the electronic initiative, the fully 
developed claim process (FDC), the VA form 21-526EZ, etc. These claims 
are a quick turnaround time, for recently released veterans. What about 
the WW II vet, the Korean vet, the Vietnam vet and all of the others in 
between who do not have access to their service medical records or 
healthcare or the production of any evidence or documents that will 
support their claims. What if all of the aforementioned veterans memory 
of events is questionable? The oldest claim I have in my office is 11 
years old. We still have a backlog in those claims.
    5) Appeals still take 2-3 years to be heard. and when they are, and 
when they are with a judge's order to expedite the claim, I feel that 
no one in the entire VA system knows the meaning of the word 
``expedite''. I realize that this issue goes beyond the RO but maybe, 
we should also look at the interaction between the RO and the board of 
veterans appeals (BVA).
    I would be remiss if I did not compliment The Pension Management 
Center Director, Gary Hodge, and his staff for their efforts on behalf 
of my claimants. If I call or e mail, they are right on the problem. 
The same kudos should be afforded the RO'S Insurance Center. I do not 
mean to besmirch the compensation component, or any other operational 
component for that matter, of the RO. I know we do our best. So, too, 
do I know we can do better. electronic answers from the VA Central 
Office are no substitute for hard work in the field. I am familiar with 
the new RO Director, Ms. Diana Rubens. I hope that she can address the 
issues of all of we field reps. The recent town meetings are a good 
first step. There should be more! Understand, that if government is to 
truly serve the people, as we reiterate constantly, than it is in those 
people's interest that we are true partners. My associates are, for 
better or worse, FTE who are grossly underutilized by the VA in 
general.
    Ladies and gentlemen, you should notice by now that I do not refer 
to the ongoing problems of the VA process as a ``challenge''. A 
challenge is me trying to reenlist in the military on 9/12/2001. These 
problems have been inherit within the claims process of the VA since I 
began my voyage of assisting other veterans and their families over 3 
decades ago. They have not gotten better. We just create new dialogue 
and the problems are not adequately addressed as our attention is drawn 
elsewhere. I do not believe that there are mean spirited people within 
the VA who would subjectively deny entitlements to a claimant. I 
believe that the process implemented through the former secretary and 
his staff in the ivory tower to address the backlog and the rating 
system, were, and still are, based upon phony statistics. Many of those 
statistics were the product of a performance bonus program. Are you 
serious? I have attended many meetings in the central office, not with 
the purpose of tearing the system down but, to point out deficiencies 
and offer any method that would make the system less frustrating to the 
claimant. It took a whistleblower former VA medical employee to open up 
the eyes of America and Congress to the workings of ``gaming'' the 
computer in order to receive a bonus. Okay, that was the Veterans 
Health Administration (VHA). The same performance bonus system is 
available within the Veterans Benefits System (VBA). To me, it's blood 
money. It is the blood of my fellow veterans that we are talking about 
here; the people who pay our salaries; they deserve better!
    Thank you for this opportunity to speak today and I will not, even 
if the rest of you pay no attention to the problems endemic within the 
VA claims process, rest on my claimants until the last breath leaves my 
body.

                                 
                             FOR THE RECORD

                   Congressman Michael G. Fitzpatrick

    The Philadelphia VA Regional Office is broken.
    Since 2012, my office has been involved in highlighting the very 
serious issues that are detracting from the Philadelphia VA's ability 
to execute its primary mission--serving veterans.
    We've had reports of improper mail handling. Boxes upon boxes of 
returned mail sat stacked in a dark corner of the mail room for years. 
This is despite efforts in 2012 to highlight the problem. Only 
recently, after national attention, has the Philadelphia office made 
efforts to sort the mail. This comes as veterans in the region describe 
sending mail to the Philadelphia VA as a black hole, almost expecting 
their mail to go missing.
    We received reports of potentially millions of dollars of duplicate 
payments being improperly doled out. The VA Central Office in 
Washington, DC attempted to downplay the concerns, telling my office 
that they have procedures in place to catch this problem and that any 
payments are minimal. But whistleblower testimony paints a different 
picture, and more needs to be done to ensure that taxpayer money is 
being used efficiently and effectively.
    We have been presented with a picture of the Philadelphia office as 
one of low employee morale plagued by a broken process; a process that 
is putting the emphasis on numbers and production to the detriment of 
individual veterans. Time and time again we hear stories of employees 
focusing on easy claims while putting off, or worse, hiding older more 
difficult claims.
    We have seen data manipulated to meet production goals. Management 
in Philadelphia directed employees to change the dates on claims, thus 
making the backlog look smaller than it really was. Furthermore, the 
Philadelphia failed to follow national protocols that required they 
report any changed dates to the VA Central office.
    I am not confident that the Philadelphia VA has identified the 
right fix.
    I have been to the Germantown office twice since the Office of 
Inspector General investigation began. I have met and listened to the 
stories of many of those hardworking employees. The picture they paint 
of the office culture is not good, and most of it leads directly back 
to management. The majority of these employees just want to serve 
veterans. Those hardworking employees are not the problem in 
Philadelphia; the problem is the management.
    When I asked Acting Secretary Sloan Gibson, during a July 24th 
Veterans Affairs Committee hearing, what the VA's plan was to fix the 
Philadelphia office, he told me that they are sending one of their most 
``capable and experienced senior leaders'' to take over that ``troubled 
location,'' and to expect ``steady improvement.''
    Veterans in the greater Philadelphia area have been expecting 
steady improvement, as promised, for the last 3 months. But we haven't 
gotten it. Instead we are getting more of the same. We get training 
materials comparing veterans to a homeless grouch that lives in a 
trashcan. Then we get claims from Philadelphia office management that 
the Oscar the Grouch training material was referring to VA employees 
and their ``inner Oscars'', not veterans. I've seen the materials. How 
you come to that conclusion is beyond me. In fact, it appears to be a 
concerted effort by Philadelphia to spin the issue in a way that, as 
the VA Secretary confirmed in correspondence to my office, is contrary 
to VA's mission and values.
    We need a Philadelphia Office that works. We cannot accept failure. 
It's going to take a concerted effort by local veterans, the 
Philadelphia VA, and by Congress to get this right. We must succeed. 
But a first step in rehabilitation is admitting you have a problem. 
Veterans know Philadelphia is a problem, and have known for some time. 
Philadelphia VA employees know we have a problem, but they've been 
silenced. Congress has been ringing the alarm about Philadelphia for 
several years, but has been paid lip service. But what is missing is a 
realization by the management within Philadelphia that they have a 
problem, that they need help. And so I hope today's hearing finally 
gets the message across to VA management. We need change. We need 
accountability. We need to fix this.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
